\

sa

USCA11 Case: 20-11276

Date Filed: 10/16/2020

Page: 1 of 1

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT

No. 20-11276-AA

CHARLENE TERRY-ANN WALKER ROSA,
a.k.a. Charlene Rosa,
Petitioner-Appellant,
versus
HOWARD FINKELSTEIN,
DOHN WILLIAMS, JR.,
Respondents-Appellees.

Appeal from the United States District Court
for the Southern District of Florida

ORDER:
Appellant’s motion to correct the record, as construed from her “Notice to the Clerk to
Correct Record,” is DENIED. Captions or designations are “not determinative as to the parties to
the action.” Lunderen v. McDaniel. (814 F.2d) 600, 604 n.2 (11th Cir. 1987).
Appellant’s motion to strike the response brief is DENIED.
Appellant’s motion for leave to file a supplemental brief is DENIED.

/s/ Adalberto Jordan
UNITED STATES CIRCUIT JUDGE

USCA11 Case: 20-11276

Date Filed: 12/11/2020

Page: 1 of 5

[DO NOT PUBLISH]
IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
No. 20-11276
Non-Argument Calendar
D.C. Docket No. 0:20-cv-60051-RKA
CHARLENE TERRY-ANN WALKER ROSA,
a.k.a. Charlene Rosa,
Petitioner-Appellant,
versus
HOWARD FINKELSTEIN,
DOHN WILLIAMS, JR.,
Respondents-Appellees.
Appeal from the United States District Court
for the Southern District of Florida
(December 11, 2020)
Before JILL PRYOR, LUCK, and BRASHER, Circuit Judges.
PER CURIAM:

USCA11 Case: 20-11276

Date Filed: 12/11/2020

Page: 2 of 5

Charlene Terry-Ann Walker Rosa, proceeding pro se, appeals the district
court’s dismissal of her “Civil Liability Suit,” which was construed as a petition for
writ of habeas corpus under 28 U.S.C. § 2254. Rosa argues that this dismissal was
improper because her filing was not a habeas petition but rather a complaint under
42 U.S.C. § 1983. Upon consideration, we conclude that Rosa’s arguments lack
merit. Accordingly, we affirm the dismissal.
I. BACKGROUND
Rosa is a Florida prisoner convicted and sentenced for first-degree murder. In
January 2020, Rosa filed a pro se complaint in federal district court titled “Civil
Liability Suit.” Without mentioning any statute, she asserted that her state public
defenders discriminated against her and had made various errors at trial. She asked
the court to “fmd[] that defendants [are] liable for the damage to [her] life and liberty
and grant a civil liability jury trial” against her state-court attorneys. The district
court dismissed her complaint for lack of jurisdiction because Rosa had previously
filed a Section 2254 habeas petition “based on these very same allegations” and had
not obtained the authorization required to file a second or successive habeas petition.
Rosa timely appealed.
II. STANDARD OF REVIEW
“We review de novo whether a petition for a writ of habeas corpus is second
or successive.” Osbourne v. Sec’y, Fla. Dep’t of Corn, 968 F.3d 1261, 1264 (11th

2

USCA11 Case: 20-11276

Date Filed: 12/11/2020

Page: 3 of 5

Cir. 2020). Although Section 2254 appeals generally require a certificate of
appealability, “no [certificate of appealability] is necessary to appeal the dismissal
for lack of subject matter jurisdiction of a successive habeas petition because such
orders are not a final order in a habeas corpus proceeding.” Id. at 1264 n.3 (cleaned
up).
III. DISCUSSION
Rosa raises several arguments on appeal, but all of them depend on her
argument that the district court misconstrued her “Civil Liability Suit” as a habeas
petition when it was actually a complaint under 42 U.S.C. § 1983. We conclude that
the district court correctly construed her filing and therefore properly dismissed it as
a successive habeas petition.
“We read briefs filed by pro se litigants liberally.” Station v. Fla. Fed. Jud.
Nominating Comm’n, 959 F.3d 1061, 1063 (11th Cir. 2020) (cleaned up). We also
“have an obligation to look behind the label of a motion filed by a pro se inmate and
determine whether the motion is, in effect, cognizable under a different remedial
statutory framework.” Gooden v. United States, 627 F.3d 846, 847 (11th Cir. 2010).
Because Rosa’s complaint had no statutory label, we must decide whether her claims
arise under Section 2254 or Section 1983, which “are mutually exclusive.”
Hutcherson v. Riley, 468 F.3d 750, 754 (11th Cir. 2006) (citation omitted). “When
an inmate challenges the circumstances of his confinement but not the validity of his

3

USCA11 Case: 20-11276

Date Filed: 12/11/2020

Page: 4 of 5

conviction []or sentence, then the claim is properly raised in a civil rights action
under [Section] 1983. Id. (citation omitted). But “if the relief sought by the inmate
would either invalidate his conviction or sentence or change the nature or duration
of his sentence, the inmate’s claim must be raised in a [Section] 2254 habeas petition,
not a [Section] 1983 civil rights action.” Id.
Even if a state prisoner cloaks his claim with a request for damages under
Section 1983, the district court must peel back the disguise and “consider whether a
judgment in favor of the plaintiff would necessarily imply the invalidity of his
conviction or sentence; if it would, the complaint must be dismissed unless the
plaintiff can demonstrate that the conviction or sentence has already been
invalidated.” Heck v. Humphrey, 512 U.S. 477, 487 (1994). Indeed, if a claim for
damages is “based on allegations . . . that necessarily imply the invalidity of the
punishment imposed, [it] is not cognizable under [Section] 1983.” Edwards v.
Balisok, 520 U.S. 641, 648 (1997).
Here, the district court was correct that Rosa’s district court filing challenges
her criminal conviction and sentence. First, she asserts that her public defenders’
alleged ineffective performance entitles her to “equitable relief from the judgment
and sentence on the indictment” of her case. Second, although in the same filing she
requests a civil trial against her public defenders and requests “damages,” the
damages that she claims arise only from her having been “convicted and

4

USCA11 Case: 20-11276

Date Filed: 12/11/2020

Page: 5 of 5

sentence[d].” Any award of damages based on her conviction and sentence would
“necessarily imply the invalidity of the punishment imposed,” so Rosa’s claims are
“not cognizable under [Section] 1983.” Balisok, 520 U.S. at 648. Because Rosa’s
claims challenge her criminal conviction and sentence, the district court correctly
construed her filing as a Section 2254 habeas petition.
The district court was also correct that the petition is a procedurally improper
successive petition. Under 28 U.S.C. § 2244(b)(3)(A), “[b]efore a second or
successive [habeas] application ... is filed in the district court, the applicant [must]
move in the appropriate court of appeals for an order authorizing the district court to
consider the application.” “Absent authorization from this Court, the district court
lacks jurisdiction to consider a second or successive habeas petition.” Osbourne, 968
F.3d at 1264 (citation omitted). Here, Rosa’s filing challenges the same conviction
and sentence that she unsuccessfully challenged in a previous habeas petition. Her
filing is therefore a successive habeas petition. But Rosa never received the required
authorization from this Court to file this petition. Thus, the district court correctly
held that it lacked jurisdiction to consider it and properly dismissed it on that ground.
IV. CONCLUSION
For the reasons stated above, we AFFIRM.

5

UNITED STATES COURT OF APPEALS
For the Eleventh Circuit

No. 20-11276

District Court Docket No.
0:20-cv-60051-RKA
CHARLENE TERRY-ANN WALKER ROSA,
a.k.a. Charlene Rosa,
Petitioner - Appellant,
versus
HOWARD FINKELSTEIN,
DOHN WILLIAMS, JR.,
Respondents - Appellees.

Appeal from the United States District Court for the
Southern District of Florida
JUDGMENT
It is hereby ordered, adjudged, and decreed that the opinion issued on this date in this appeal is
entered as the judgment of this Court.
Entered: December 11, 2020
For the Court: DAVID J. SMITH, Clerk of Court
By: Djuanna H. Clark

ISSUED AS MANDATE 03/04/2021

USCA11 Case: 20-11276

Date Filed: 02/24/2021

Page: 1 of 1

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT

No. 20-11276-AA

CHARLENE TERRY-ANN WALKER ROSA,
a.k.a. Charlene Rosa,
Petitioner - Appellant,
versus
HOWARD FINKELSTEIN,
DOHN WILLIAMS, JR.,
Respondents - Appellees.

Appeal from the United States District Court
for the Southern District of Florida

ON PETITIONfSI FOR REHEARING AND PETITIONS FOR REHEARING EN BANC
BEFORE: JILL PRYOR, LUCK, and BRASHER, Circuit Judges.
PER CURIAM:
The Petition for Rehearing En Banc is DENIED, no judge in regular active service on the Court
having requested that the Court be polled on rehearing en banc. (FRAP 35) The Petition for
Rehearing En Banc is also treated as a Petition for Rehearing before the panel and is DENIED.
(FRAP 35, IOP2)

ORD-42

provided to
PL WOMEN'S

UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
ELBERT PARR TUTTLE COURT OF APPEALS BUILDING
56 Forsyth Street, N.W.
Atlanta, Georgia 30303

^ULCtM}s^ <*

(o-'Z. [
For rules and forms visit
www.cal 1 uscourts.gov

David J. Smith
Clerk of Court

March 04, 2021
Clerk - Southern District of Florida
U.S. District Court
400 N MIAMI AVE
MIAMI, FL 33128-1810

HXolcM

Appeal Number: 20-11276-AA
Case Style: Charlene Walker Rosa v. Howard Finkelstein, et al
District Court Docket No: 0:20-cv-60051-RKA
A copy of this letter, and the judgment form if noted above, but not a copy of the court's
decision, is also being forwarded to counsel and pro se parties. A copy of the court's decision
was previously forwarded to counsel and pro se parties on the date it was issued.
The enclosed copy of the judgment is hereby issued as mandate of the court. The court's opinion
was previously provided on the date of issuance.
Sincerely,
DAVID J. SMITH, Clerk of Court
Reply to: Lois Tunstall
Phone#: (404)335-6191
Enclosure(s)
MDT-1 Letter Issuing Mandate

Di

/..<? oj4
t

fm
H g>7

i.

j

r
Subject:Activity in Case 0:20-cv-60051-RKA Walker Rosa v. Finkelstein et al Clerk's Notice
of Judge Assignment
. ,
,
This is an automatic e-mail message generated by the CM/ECF system.
Please DO NOT RESPOND to this e-mail because the mail box is unattended.
***N0TE TO PUBLIC ACCESS USERS*** Judicial Conference of the United States policy permits
attorneys of record and parties in a case (including pro se litigants) to receive one
free electronic copy of all documents filed electronically, if receipt is required by law or
directed by the filer. PACER access fees apply to all other users. To avoid later
charges, download a copy of each document during this first viewing. However, if the referenced
document is a transcript, the free copy and 30 page limit do not apply.
U.S. District Court
Southern District of Florida
Notice of Electronic Filing
.
The following transaction was entered on 1/10/2020 11:42 AM EST and filed
on 1/9/2020
Case Name: Walker Rosa v. Finkelstein
et al
Case Number: 0:20-cv-60051-RKA
Filer:
Document Number: 2
2(No document attached)
Docket Text:
- Clerks Notice of Judge Assignment to
Judge Roy K. Altman and Magistrate Judge Lisette M. Reid. <p> Pursuant
to Administrative Order 2019-2, this matter is referred to the Magistrate
Judge for a ruling on all pre-trial, non-dispositive matters and for a Report
and Recommendation on any dispositive matters, (mee)

*rrT*

ttt'O

\

<3
U.S. District Court - Southern District of Florida

Charlene Terry-Ann Walker Rosa L06814
Florida Women Reception Center
3700 NW 111th Place
Ocala, FL 34482-1479
Case: 0:20-cv-60051-RKA #2

2 pages

Fri Jan 10 11:51:11 2020

IMPORTANT: REDACTION REQUIREMENTS AND PRIVACY POLICY
Note: This is NOT a request for information.
Do NOT include personal identifiers in documents filed with the Court, unless
specifically permitted by the rules or Court Order. If you MUST include personal
identifiers, ONLY include the limited information noted below:
• Social Security number: last four digits only
• Taxpayer ID number: last four digits only
• Financial Account Numbers: last, four digits only
• Date of Birth: year only
—• Minor's name: initials only
• Home Address: city and state only (for criminal cases only).
Attorneys and parties are responsible for redacting (removing) personal identifiers from
filings. The Clerk's Office does not check filings for personal information.
Any personal information included in filings will be accessible to the public over the
internet via PACER.
For additional information, refer to Fed. R. Civ. P. 5.2 and Fed. R. Crim. P. 49.1.
Also see the CM/ECF Administrative Procedures located on the Court's website
www.flsd.uscourts.gov.
IMPORTANT: REQUIREMENT TO MAINTAIN CURRENT MAILING ADDRESS AND CONTACT INFORMATION
Pursuant to Administrative Order 2005-38, parties appearing pro se and counsel appearing
pro hac vice must file, in each pending case, a notice of change of mailing address or
contact information whenever such a change occurs. If court notices sent via the U.S. mail
are returned as undeliverable TWICE in a case, notices will no longer be sent to that party
until a current mailing address is provided.
IMPORTANT:

ADDITIONAL TIME TO RESPOND FOR NON-ELECTRONIC SERVICE

Additional days to respond may be available to parties serviced by non-electronic means.
See Fed.R.Civ.P.6(d), Fed.R.Crim.P.45(c) and Local Rule 7.1(c)(1)(A). Parties are
advised that the response deadlines automatically calculated in CMECF do NOT account
for and may NOT be accurate when service is by mail. Parties may NOT rely on response
times calculated in CMECF, which are only a general guide, and must calculate response
deadlines themselves.
See reverse side

U.S. District Court - Southern District of Florida

Charlene Terry-Ann Walker Rosa L06814
Florida Women Reception Center
3700 NW 111th Place
Ocala, FL 34482-1479
r

Case: 0:20-cv-60051-RKA #4

6 pages

Wed Mar 4 23:57:17 2020

IMPORTANT: REDACTION REQUIREMENTS AND PRIVACY POLICY
Note: This is NOT a request for information.
Do NOT include personal identifiers in documents filed with the Court, unless
specifically permitted by the rules or Court Order. If you MUST include personal
identifiers, ONLY include the limited information,noted below:
• Social Security number: last four digits only
• Taxpayer ID number: last four digits only
• Financial Account Numbers: last four digits only
• Date of Birth: year only
• Minor's name: initials only
• Home Address: city and state only (for criminal cases only).

- -

Attorneys and parties are responsible for redacting (removing) personal identifiers from
filings. The Clerk's Office does not check filings for personal information.
Any personal information included in filings will be accessible to the public over the
internet via PACER.
For additional information, refer to Fed. R. Civ. P. 5.2 and Fed. R. Crim. P. 49.1.
Also see the CM/ECF Administrative Procedures located on the Court's website
www.flsd.uscourts.gov.
IMPORTANT: REQUIREMENT TO MAINTAIN CURRENT MAILING ADDRESS AND CONTACT INFORMATION
Pursuant to Administrative Order 2005-38, parties appearing pro se and counsel appearing
pro hac vice must file, in each pending case, a notice of change of mailing address or
contact information whenever such a change occurs. If court notices sent via the U.S. mail
are returned as undeliverable TWICE in a case, notices will rio longer be sent to that party
until a current mailing address is provided.
IMPORTANT:

ADDITIONAL TIME TO RESPOND FOR NON-ELECTROIHC SERVICE

Additional days to respond may be available to parties serviced by non-electronic means.
See Fed.R.Civ.P.6(d), Fed.R.Crim.P.45(c) and Local Rule 7.1(c)(1)(A). Parties are
advised that the response deadlines automatically calculated in CMECF do NOT account
for and may NOT be accurate when service is by mail. . Parties may NOT rely on response
times calculated in CMECF, which are only a general guide, and must calculate response
deadlines themselves.
See reverse side

Subj6ct:Activity in Csss 0:20-cv—60051-RKA Walker Rosa v. Finkelstein et al Report and
Recommendations
j
This is an automatic e-mail message generated by the CM/ECF system.
Please DO NOT RESPOND to this e-mail because the mail box is unattended.
***N0TE TO PUBLIC ACCESS USERS*** Judicial Conference of the United States policy Permits
_____
attorneys of record and parties
in _a case (including pro se litigants) to receive one
of
all
documents
filed electronically, if receipt is required by law or
free electronic copy
-------directed by the filer. PACER access fees apply to all other u?ers:Jo^avoidplater
charges,
charges, download
download aa copy
copy of each document during this first viewing. However, if the referenced
document is a transcript, the free copy and 30 page limit do not apply.
U.S. District Court
Southern District of Florida
Notice of Electronic Filing
...
The following transaction was entered on 3/4/2020 8:50 PM EST and filed
on 3/4/2020
Case Name: Walker Rosa v. Finkelstein
et al
Case Number: O:2O-cv-60051-RKA
Filer:
Document Number: 4

Docket Text:
REPORT AND RECOMMENDATIONS on 28 USC
2254 case re [1] Application/Petition (Complaint) for Writ of Habeas Corpus
filed by Charlene Terry-Ann Walker Rosa; Recommending that Petitioner's
.
Petition for Writ of Habeas Corpus ECF No. [1] be DISMISSED for lack or jurisdiction
as an unauthorized successive petition and all pending motions be DENIED
as moot. Objections to R&R due by 3/18/2020. Signed by Magistrate Judge
Lisette M. Reid on 3/4/2020. <I>See attached document for full details.</I>
(fbn)
0:20-CV-60051-RKA Notice has been electronically mailed to:
Noticing 2254 SAG Broward and North CrimAppWPB@MyFloridaLegal.com
Heidi L. Bettendorf
CrimAppWPB@MyFloridaLegal.com, heidi.bettendorf@myflondalegal.com

0•20-cv-60051-RKA Notice has not been delivered electronically to those listed
below and will be provided by other means. For further assistance., please
contact our Help Desk at 1-888-318-226.0.:
Charlene Terry-Ann Walker Rosa
Service list page 1 only

Case;i0:20-cv-60051-RKA

Document #: 4 Entered on FLSD Docket: 03/04/2020

Page 1 of 4

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF FLORIDA
CASE NO. 20-60051-CV-ALTMAN
MAGISTRATE JUDGE REID

CHARLENE ROSA, a/k/a
CHARLENE TERRY-ANN
WALKER ROSA,
Petitioner,
v.
HOWARD FINKELSTEIN, et al.,
Respondents.
REPORT AND RECOMMENDATION OF MAGISTRATE JUDGE
This matter is before the Court sua sponte on Petitioner’s pro se “Civil
Liability Suit” which is in effect a Petition for Writ of Habeas Corpus, filed pursuant
to 28 U.S.C. § 2254. [ECF No. 1]. This cause has been referred to the Undersigned
for Report and Recommendation on any dispositive matter pursuant to 28 U.S.C. §
636(b)(1)(B) and S.D. Fla. Admin. Order 2019-2. [ECF No. 2],
Petitioner, Charlene Rosa, also known as Charlene Terry-Ann Walker
Rosa, is a prolific filer in both federal and state courts in Florida. In the instant
Petition, Petitioner again seeks to challenge her conviction and sentence following a
jury trial in the Circuit Court of the Seventeenth Judicial Circuit in and for Broward
County, Case No. 04010827CF10A.

Case: 0:20-cv-60051-RKA

Document#: 4 Entered on FLSD Docket: 03/04/2020

PageJ Of 4

However, Petitioner has already filed a petition in this Court challenging this
j

'

'

conviction, and the petition was denied. See Rosa v. Florida, Case No. 16-62332CV-BLQOM, ECF 53 (Report and Recommendation) 2018 U.S. Dist. LEXIS,
56733 (S.D. Fla. Apr. 2, 20-18), ECF 61 (Order Adopting Report arid
Recommendation) (S.D. Fla. May 31, 2018), ECF 78 (Denying Motion for
Reconsideration) 2018 U S. Dist. LEXIS 155854,2018 WL4362081 (S.D. Fla. Sept.
12, 2018),LLCF 91 (Denying Certificate of Appealability) (S.D. Fla. Sept. 26, 2018),
aff’d, No:;’U8-12339-C, 2019 U.S. App. LEXIS 450 (11th Cir. Jan. 7, 2019),
reconsideration denied, 2019 U.S. App. LEXIS 6880 (11th Cir. Mar. 7, 2019), cert,
denied, No. 18-9065, 139 S. Ct. 2757 (2019), petition for rehearing denied, 140 S.
A

Ct. 31(2019).
Accordingly, “[b]efore presenting a second or successive petition^ the
petitioner must obtain an order from the appropriate court of appeals authorizing the
district court to consider the petition as required by 28 U.S.C. § 2255(b)(3) and (4).
Rules Governing § 2254 Proceedings, R. 9. No authorization has been granted in
this case.

1 Petitioner is likely aware of this, because she has previously attempted to receive authorization
from the Eleventh Circuit to file a successive petition and was denied. See In re Rosa, No. 1910517-C, 2019 U.S. App. LEXIS 6161 (11th Cir. Feb. 28, 2019); see also In re Rdsa, No. 1910977-E, 2019 U.S. App. LEXIS 10277 (11th Cir. Apr. 5, 2019); see also In re Rosa, No. 1911519-F, 2019 U.S. App. LEXIS 14214 (11th Cir. May 13,2019). Petitioner also has another case
open making similar allegations which has been recommended to be dismissed as a successive
§ 2254 petition but remains pending. See Rosa v. Fla., Case No. 19-62335-CV-SMITH.

2

Case: 0:20-cv-60051-RKA

Document #: 4 Entered on FLSD Docket: 03/04/2020

Page 3 of 4

The Court lacks jurisdiction to decide this case absent such an authorization
from the United States Court of Appeals for the Eleventh Circuit..See Gonzalez v.
S'ec’y.for the Dep’t. of Corr., 366 F.3d 1253,1297-98 (11th Cir. 2004) (en banc).
Accordingly, it is RECOMMENDED that Petitioner’s Petition for Writ of
Habeas Corpus [ECF No. 1] be DISMISSED for lack of jurisdiction as an
unauthorized successive petition and all pending motions be DENIED as moot.
Objections to this Report and Recommendation may be filed with the District
Judge within fourteen days of receipt of a copy of such. Failure to do so will bar a
de novo determination by the District Judge of anything in the Report and
Recommendation and will bar an attack, on appeal, of the factual findings of the
Magistrate Judge. See 28 U.S.C. § 636(b)(1)(C); see also Thomas v. Arn, 474 U.S.
140, 149 (1985).
SIGNED this 4th day of March, 2020.
UNITED STATES MAGISTRATE JUDGE
cc:

Charlene Rosa
L06814
Lowell Annex
Inmate Mail/Parcels
11120 NW Gainesville Road
Ocala, FL 34482
PROSE

3

Case: 0:20-cv-60051-RKA

Document #: 4 Entered on FLSD Docket: 03/04/2020

Heidi L. Bettendorf
Attorney General's Office
1515 N Flagler Drive, Suite 900
West Palm Beach, FL 33401-3432
Email: CrimAppWPB@MyFlpridaLegal.com
Noticing 2254 SAG Broward and North
Email: CrimAppWPB @ MyFlori daLegal .com

4

Page 4 of 4

Case: 0:20-cv-60051-RKA

Document #: w Entered on FLSD Docket: 03/24/2020

Page 1 of 4

'r-

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF FLORIDA
CASE NO. 20-60051-CIV-ALTMAN/Reid
CHARLENE ROSA a/k/a
CHARLENE TERRY-ANN WALKER ROSA,
Petitioner,
v.

HOWARD FINKELSTEIN etai,
Respondents.

ORDER
On January 9, 2020, the pro se Petitioner, Charlene Rosa (“Rosa”), filed what she called a
“Civil Liability Suit” [ECF No. 1]. The Clerk referred the case to United States Magistrate Judge
Lisette M. Reid for a ruling on ail pre-trial, non-dispositive questions and for a report and
recommendation on any dispositive matters [ECF No. 2 (citing Administrative Order 2019-2)].
After the Defendants filed a Motion to Dismiss, Judge Reid issued a Report and Recommendation
( R&R ) [ECF No. 4], in which she suggested that Rosa’s suit be dismissed because it is a
successive petition for writ of habeas corpus, see 28 U.S.C. § 2254—and not, as Rosa claims, a
civil suit under 42 U.S.C. § 1983. See generally R&R.
Because Rosa filed timely objections to the R&R (“Objections”) [ECF No. 5], the Court
must review de novo those portions of the R&R to which Rosa objected. See Fed. R. Civ. P.
72(b)(3).1 For the reasons that follow, the Court ADOPTS the R&R in fulL

See Fed. R. Civ. P. 72(b)(3) (“Resolving Objections. The district judge must determine de novo
any part of the magistrate judge’s disposition that has been properly objected to. The district judge
may accept, reject, or modify the recommended disposition; receive further evidence; or return the
matter to the magistrate judge with instructions.”).

Case: 0:20-cv-60051-RKA

Document#: 9 Entered on FLSD Docket: 03/24/2020

Page 2 of 4

ANALYSIS
The Court agrees with Judge Reid that Rosa’s “Civil Liability Suit” is just another in a long
line of collateral attacks she has levied against her three consolidated state-court criminal
*

proceedings. Indeed, in case there was any doubt about her intentions, Rosa lists these three

r

criminal cases—Case No. 05-014414CF10A, Case No. 05-01441CF10A, and Case No. 04010827CF10A—at the very top of her “Civil Liability Suit.” She then proceeds to describe, over

f

the course of twenty pages, precisely how her assistant public defenders—the Defendants
FihkelStein and Williams—failed to represent her best interests during those criminal cases. See
Civil Liability Suit at 1. She claims, for instance, that (1) Williams pressured her into confessing,
and then Coerced her into pleading guilty, because she is Jamaican and “Americans believe that
Jamaicans are known drug slingers and murderers”; (2) Williams “refuse[d] to discuss the charge
indictment and/or information” with her; (3) both Defendants conspired with the state to “prevent
her from knowing about her rights or defenses or from having a fair opportunity to present or
litigate them at criminal trial;” and (4) both Defendants engaged in a long litany of other

!

misconduct. See generally id. As relief, Rosa asks the Court to “grant a civil liability jury trial”
against the Defendants. Id. at 18.
Unfortunately for Rosa, she has previously filed a writ of habeas corpus based on these
very same allegations (Case No. 16-cv-62332-BLOOM). Judge Bloom dismissed Rosa’s Petition
under 28 U.S.C. § 2254 on May 31, 2018, see R&R at 2, and the Eleventh Circuit affirmed Judge
Bloom’s decision On January 7, 2019. Id.
Under Rule 9 of § 2254, “[bjefore presenting a second or successive petition, the petitioner
must obtain an order from the appropriate court of appeals authorizing the district court to consider
the petition as required by 28 U.S.C. § 2244(b)(3) and (4).” Although Rosa has, on several

(
/

2

Case: 0:20-cv-60051-RKA S Document #: 9 Entered on FLSD Docket: 03/24/2020

Page 3 of 4

occasions, asked the Eleventh Circuit for this very authorization, the Court of Appeals has denied
her request every time. See R&R at n. 1 (citing three instances in which Rosa’s requests for
authorization to file a successive petition were denied). The Court thus lacks subject-matter
jurisdiction to consider the merits of Rosa’s case. See Burton v. Stewart, 549 U.S. 147 (2007) (a
district court must dismiss a petition “for lack of jurisdiction” if the prisoner does not receive
authorization from the court of appeals before she files a second or successive petition in the
district court); Lambrix v. Sec’y, Dep’t of Corr., 872 F.3d 1170, 1180 (11th Cir. 2017) (when a
petitioner ( fails

to

obtain

authorization

from

the

court

of

appeals

to

file

a second or successive habeas petition, “the district courts lack jurisdiction to consider the merits
of the petition”).2
In her Objections, Rosa argues that Judge Reid’s recommendation was erroneous
because—she claims—it treated Rosa as a person “too poor” and “of a certain class as a Jamaican.”
Objections at 1. Rosa maintains that her claims of “discrimination, fraud, and malicious
prosecution” are “not in the nature of a petition for a writ of habeas corpus,” but rather are
cognizable under 42 U.S.C. § 1983. Id. at 2. But, even assuming that her claims did more than
attack her lawyers’ conduct during her decade-old criminal proceedings, the statute of limitations
for her purported “discrimination, fraud, and malicious prosecution” claims expired many years
ago. After all, according to Rosa, the misconduct occurred between 2005 and 2007. See Civil
Liability Suit at 2. The statute of limitations for discrimination claims in Florida is four years.3 See

2 Rosa has also attempted to file an Amended Complaint, in which she sought further relief,
including a new state-court trial Judge Reid denied the proposed Amended Complaint on March
19, 2020 [ECF No. 8]. Notably, the Amended Complaint, like the operative Complaint, was a
thinly-veiled collateral attack on her underlying, state-court criminal convictions.
3 To prevail on a discrimination claim under the Florida Civil Rights Act, Fla. Stat. § 760.01 et
seq., Rosa was also required to exhaust certain administrative remedies—which she has not done.
Fla. Stat. § 760.11.
3
''H.

Case: 0:20-CV-60O51-RKA

Document #: 9 Entered on FLSD Docke^i:..03/24/2020

Page 4 of 4

J
Fla. Stat. § 95.1 l\(3)(f). The statute of limitations for fraud and'malicious prosecution is four years.
See Fla. Stat. § 95H)l(3)(j); Fla. Stat. § 95.11(3)(o). In other words, to the extent that any of Rosa’s
claims can be liberally construed as arising under 42 U.S.C. § 1983, they are time-barred.
Accordingly, the Court hereby
ORDERS AND ADJUDGES that the R&R [ECF No. 4] is ADOPTED IN FULL. The
“Civil Liability Suit” [ECF No. 1] is DISMISSED. The Clerk of the Court is instructed to CLOSE
this case, and any pending motions are DENIED as moot.
DONE AND ORDERED in Fort Lauderdale, Florida, this 24th day of March 2020.

ROY K. ALTMAN
UNITED STATES DISTRICT JUDGE
cc:

Charlene Rosa, pro se

4

Subject:Activity in Case 0:20-cv-60051-RKA Walker Rosa v. Finkelstein et al Order on
Motion to Amend/Correct
This is an automatic e-mail message generated by the CM/ECF system.
Please DO NOT RESPOND to this e-mail because the mail box is unattended.
***N0TE TO PUBLIC ACCESS USERS*** Judicial Conference of the United States policy permits
attorneys of record and parties in a case (including pro se litigants) to receive one
free electronic copy of all documents filed electronically, if receipt is required by law or
directed by the filer. PACER access fees apply to all other users. To avoid later
charges, download a copy of each document during this first viewing. However, if the referenced
document is a transcript, the free copy and 30 page limit do not apply.
U.S. District Court
Southern District of Florida
Notice of Electronic Filing
The following transaction was entered on 3/19/2020 2:06 PM EDT and filed
on 3/19/2020
Case Name: Walker Rosa v. Finkelstein
et al
Case Number: 0:20-cv-60051-RKA
Filer:
Document Number: 8
8(No document attached)
Docket Text:
PAPERLESS ORDER denying [6] Motion
to Amend/Correct. Plaintiff/Petitioner seeks to file what she calls an "Amended
Complaint" pursuant to 42 U.S.C. 1983 because she insists that this
case is a civil action brought pursuant to 42 U.S.C. 1983, and not a federal
habeas case brought pursuant to 28 U.S.C. 2254. [ECF Nos. 5, 6, 7]. However,
a review of the Proposed Amended Complaint indicates that Plaintiff seeks
relief that is exclusively available in a habeas case, specifically a new_
trial in her state court criminal proceedings. Either way, the Motion is
denTed~Because to~the^femr^IT^lT^d6ts seek to bring a civil action as
opposed to a habeas petition, amendment would be futile because it would
either be barred by jtiie_st5tute_of limitations._px, jn^tije^alieujiaUy.e.,. would
be~barreT'by Heck v. Humphrey, 512 U.S. 47Z_(.199i). Plaintiff/Petitioner
states^haT^T^iVTl'^ction 'stems from a 2006 incident where her public
ripfpfwisr allegedly discriminated against heOOer civil case, causing her^
to be imprisoned. This case wasTfiTed~in 2020, nearly 10 years after Tne
TouFyeirstStUte of limitations-expired. Alternatively, this case would
be barred by Heck, because it would necessarily implicate the validityjof
ffierxrpffifal cojufiJiTgceedirfgTTWhich have not been reversed, expunged, or
oTherwise invalidated. ApTaintiff may not file such a civil action until
her conviction as been invalidated, and it is premature if filed before that
happens. See Abella v. Rubino, 63 F.3d 1063, 1066 (11th Cir. 1995). To the
extent she seeks to bring a habeas action, amendment is denied as futile
because the Court lacks jurisdiction Over a successive habeas petitionabsent
authorization froiTthe El^Trth"arruit,“WhictrlTas-not happened. [See ECF
No. 4]. Signed by Magistrate Judge Lisette M. Reid on 3/19/2020.
(ac01)

\

U.S. District Court - Southern District of Florida

Charlene Terry-Ann Walker Rosa L06814
Florida Women Reception Center
3700 NW 111th Place
Ocala, FL 34482-1479
Case: 0:2O-cv-60051-RKA #8

2 pages

Thu Mar 19 14:21:12 2020

IMPORTANT: REDACTION REQUIREMENTS AND PRIVACY POLICY
Note: This is NOT a request for information.
Do NOT include personal identifiers in documents filed with the Court, unless
specifically permitted by the rules or Court Order. If you MUST include personal
identifiers, ONLY include the limited information noted below:
• Social Security number: last four digits only
• Taxpayer ID number: last four digits only
• Financial Account Numbers: last four digits only
• Date of Birth: year.only
• Minor's name: initials only
• Home Address: city and state only (for criminal cases only).
Attorneys and parties are responsible for redacting (removing) personal identifiers from
filings. The Clerk's Office does not check filings for personal information.
Any personal information included in filings will be accessible to the public over the
internet via PACER.
For additional information, refer to Fed. R. Civ. P. 5.2 and Fed. R. Crim. P. 49.1.
Also see the CM/ECF Administrative Procedures located on the Court’s website
www.flsd.uscourts.gov.
IMPORTANT: REQUIREMENT TO MAINTAIN CURRENT MAILING ADDRESS AND CONTACT INFORMATION
Pursuant to Administrative Order 2005-38, parties appearing pro se and counsel appearing
pro hac vice must file, in each pending case, a notice of change of mailing address or
contact information whenever such a change occurs. If court notices sent via the U.S. mail
are returned as undeliverable TWICE in a case, notices will no longer be sent to that party
until a current mailing address is provided.
IMPORTANT:

ADDITIONAL TIME TO RESPOND FOR NON-ELECTRONIC SERVICE

Additional days to respond may be available to parties serviced by non-electronic means.
See Fed.R.Civ.P.6(d), Fed.R.Crim.P.45(c) and Local Rule 7.1(c)(1)(A). Parties are
advised that the response deadlines automatically calculated in CMECF do NOT account
for and may NOT be accurate when service is by mail. Parties may NOT rely on response
times calculated in CMECF, which are only a general guide, and must calculate response
deadlines themselves.
See reverse side
/

)

Case: 0:20-cv-6005l-RKA

Document #:

Entered on FLSD Docket: 03/24/2020

Page 1 of 4

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF FLORIDA
CASE NO. 20-60051-CIV-ALTMANZReid
CHARLENE ROSA a/k/a
CHARLENE TERRY-ANN WALKER ROSA,
Petitioner,
v.

HOWARD FINKELSTEIN et al.,
Respondents.

ORDER
On January 9, 2020, the pro se Petitioner, Charlene Rosa (“Rosa”), filed what she called a
■i

“Civil Liability Suit” [ECF No. 1], The Clerk referred the case to United States Magistrate Judge
Lisette M. Reid for a ruling on all pre-triai, non-dispositive questions and for a report and
recommendation on any dispositive matters [ECF No. 2 (citing Administrative Order 2019-2)].
After the Defendants filed a Motion to Dismiss, Judge Reid issued a Report and Recommendation
( R&R ) [ECF No. 4], in which she suggested that Rosa’s suit be dismissed because it is a
successive petition for writ of habeas corpus, see 28 U.S.C. § 2254—and not, as Rosa claims, a
civil suit under 42 U.S.C. § 1983. See generally R&R.
Because Rosa filed timely objections to the R&R (“Objections”) [ECF No. 5], the Court
must review de novo those portions of the R&R to which Rosa objected. See Fed. R. Civ. P.
72(b)(3).1 For the reasons that follow, the Court ADOPTS the R&R in full

See Fed. R. Civ. P. 72(b)(3) (“Resolving Objections. The district judge must determine de novo
any part of the magistrate judge’s disposition that has been properly objected to. The district judge
may accept, reject, or modify the recommended disposition; receive further evidence; or return the
matter to the magistrate judge with instructions.”).

Case: 0:20-cv-60051-RKA s Document#: 9 Entered on FLSD Docket: 03/24/2020

Page 3 of 4

occasions, asked the Eleventh Circuit for This very authorization, the Court of Appeals has denied
her request every time. See R&R at n. 1 (citing three instances in which Rosa’s requests for
authorization to file a successive petition were denied). The Court thus lacks subject-matter
jurisdiction to consider the merits of Rosa’s case. See Burton v. Stewart, 549 U.S. 147 (2007) (a
district court must dismiss a petition ‘Tor lack of jurisdiction” if the prisoner does not receive
authorization from the court of appeals before she files a second or successive petition in the
district court); Lambrix v. Sec’y, Dep’t of Corr., 872 F.3d 1170, 1180 (11th Cir. 2017) (when a
petitioner ( fails

to

obtain

authorization

from

the

court

of

appeals

to

file

a second or successive habeas petition, “the district courts lack jurisdiction to consider the merits
of the petition”).2
In her Objections, Rosa argues that Judge Reid’s recommendation was erroneous
because—she claims—it treated Rosa as a person ‘Too poor” and “of a certain class as a Jamaican.”
Objections at 1. Rosa maintains that her claims of “discrimination, fraud, and malicious
prosecution” are “not in the nature of a petition for a writ of habeas corpus,” but rather are
cognizable under 42 U.S.C. § 1983. Id. at 2. But, even assuming that her claims did more than
attack her lawyers’ conduct during her decade-old criminal proceedings, the statute of limitations
for her purported “discrimination, fraud, and malicious prosecution” claims expired many years
ago. After all, according to Rosa, the misconduct occurred between 2005 and 2007. See Civil
Liability Suit at 2. The statute of limitations for discrimination claims in Florida is four years.3 See

2 Rosa has also attempted to file an Amended Complaint, in which she sought further relief,
including a new state-court trial. Judge Reid denied the proposed Amended Complaint on March
19, 2020 [ECF No. 8]. Notably, the Amended Complaint, like the operative Complaint, was a
thinly-veiled collateral attack on her underlying, state-court criminal convictions.
3 To prevail on a discrimination claim under the Florida Civil Rights Act, Fla. Stat. § 760.01 et
seq., Rosa was also required to exhaust certain administrative remedies—which she has not done.
Fla. Stat. § 760.11.
3

u ^ J uljUaJ) f[ycul4

•’

CovjJr

:',

.*

IN THE CIRCUIT COURT OF THE 11TH JUDICIAL CIRCUIT IN AND FOR MIAMI-DADE COUNTY, FLORIDA
CIRCUIT CIVIL DIVISION
Charlene Rosa, et.al.
Plaintiff(s),
vs.
Howard Finkelstein (Broward County Public Defender), etal.
Defendant(s).

CASE NO. 2017-025724-CA-01
SECTION 25) (Section

J
NOTICE OF LACK OF PROSECUTION
and
ORDER TO APPEAR FOR HEARING
Notice of Lack of Prosecution: Notice is hereby provided, pursuant to Rule 1.420(e), Fla.R.Civ.P., that the Court intends to dismiss
the above-styled action because it appears that there has been no record activity for the last ten (10) months and no stay has been issued or
approved by the court.
Order to Appear: The parties are ordered to appear at 11:00 AM, am/pm, on the 4th day of January, 2021 for a hearing on the
Court’s motion to dismiss the above-styled cause for lack of prosecution, at the Dade County Courthouse, 73 W. Flagler Street,
Courtroom DCC-Circuit Chambers 1111, Miami, FL 33130, before the Honorable Valerie Manno-Schurr
CA25) (Section.
To prevent the dismissal of the above-styled cause, the party opposing the dismissal must appear: AND bring hard copies of
recent filings: AND affirmatively establish at least one of the following:
1. There had been record activity within ten (10) months prior to service of this Notice and Order to Appear; or
2. A stay of the action was in effect within the ten (10) months prior to service of this Notice and Order to Appear; or
3. There has been record activity within sixty (60) days immediately following the service of this Notice and Order to
Appear; or
4. The Court issued a stay of the action within sixty (60) days immediately following the service of this Notice and
Order to Appear; or
5. At least five (5) days before the hearing, the party opposing the dismissal established good cause, in writing, for the
action to remain pending.
The failure of the party opposing the dismissal to appear at the hearing and tfsl?bUsIirth&-exisjt£fi ce of at least one of the above,
shall constitute an abandonment of any justified defense, and the above-styled action sraflVd biSrtfisMH&r lack of prosecution on the date
of the hearing, set forth above.
f T • 1
viti ... . jJaO
DONE and ORDERED in Chambers at Miami-Dade County, Florida, on

VALERIE MANNO-SCHURR
CiRC'JiT COURT JUDGE
CIRCUIT COURT JUDGE

cc: Counsel/Parties of Record

If you are a person with a disability who needs any accommodation in order to participate
in this proceeding, you are entitled, at no cost to you, to the provision of certain assistance.
Please contact Aliean Simpkins, the Eleventh Judicial Circuit Court’s ADA Coordinator,
Lawson E. Thomas Courthouse Center, 175 NW 1st Ave., Suite 2400, Miami, FL 33128,
Telephone (305) 349-7175; TDD (305) 349-7174, Fax (305) 349-7355, Email:
ADA@judll.flcourts.org at least seven (7) days before your scheduled court appearance,
or immediately upon receiving this notification if the time before the scheduled
appearance is less than seven (7) days; if you are hearing or voice impaired, call 711.

CHARLENE ROSA
Lowell Correctional Annex
11120 NW Gainesville Road
Ocala FL 34482

\

¥

A

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
No. 18-12339-C
CHARLENE TERRY-ANN WALKER ROSA,
Petitioner-Appellant,
versus

STATE OF FLORIDA,
ATTORNEY GENERAL OF THE STATE OF FLORIDA,
Respondents-Appellees.
Appeal from the United States District Court
for the Southern District of Florida
ORDER:
Charlene Terry-Ann Walker Rosa moves for a certificate of appealability (“COA”) in
order to appeal the dismissal of her 28 U.S.C. § 2254 petition for writ of habeas and denial of her
Fed. R. Civ. P. 59(e) motion to alter or amend the judgment To merit a COA, Rosa must make
“a substantial showing of die denial of a constitutional right.” 28 U.S.C. § 2253(c)(2). Because,
Rosa failed to make a substantial showing of the denial of a constitutional right, her motion for a
COA is DENIED^
Rosa's motion for appointment of counsel is also DENIED AS MOOT.

/a/ Stanley Marcus
UNITED STATES CIRCUIT JUDGE

Case: 18-12339

Date Filed: 01/07/2019

Page: 1 of 1

UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
ELBERT PARR TUTTLE COURT OF APPEALS BUILDING
56 Forsyth Street, N.W.
Atlanta, Georgia 30303
For rules and forms visit
www.eal 1 .uscourts.gov

David J. Smith
Clerk of Court

January 07,2019
Clerk - Southern District of Florida
U.S. District Court
400 N MIAMI AVE
MIAMI, FL 33128-1810
Appeal Number: 18-12339-C
Case Style: Charlene Walker Rosa v. State of Florida, et al
District Court Docket No: 0:16-cv-62332-BB
The enclosed copy of this Court's order denying the application for a Certificate of
Appealability is issued as the mandate of this court. See 11th Cir. R. 41-4. Counsel and pro se
parties are advised that pursuant to 11th Cir. R. 27-2, "a motion to reconsider, vacate, or modify
an order must be filed within 21 davs of the entry of such order. No additional time shall be
allowed for mailing."
All pending motions are now rendered moot in light of the attached order.
Sincerely,
DAVID J. SMITH, Clerk of Court
Reply to: Walter Pollard, C
Phone#: (404) 335-6186
Enclosure(s)
DIS-4 Multi-purpose dismissal letter

L
V

i

UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
ELBERT PARR TUTTLE COURT OF APPEALS BUILDING
56 Forsyth Street, N.W.
Atlanta, Georgia 30303
David J. Smith
Clerk of Court

For rules and forms visit
www.cal 1 .uscouns.gov

March 07, 2019
Charlene Terry-Ann Walker Rosa
Lowell Cl - Inmate Legal Mail
11120 NW GAINESVILLE RD
OCALA, FL 34482-1479
Appeal Number: 18-12339-C
Case Style: Charlene Walker Rosa v. State of Florida, et al
District Court Docket No: 0:16-cv-62332-BB
This Court requires all counsel to file documents electronically using the Electronic Case
Files ("ECF") system, unless exempted for good cause.
The enclosed order has been ENTERED.
*Copy of our order entered on January 07,2019, is enclosed.
Sincerely,
DAVID J. SMITH, Clerk of Court
Reply to: Walter Pollard, C/lt
Phone #: (404) 335-6186
MOT-2 Notice of Court Action

A

&l

*

If

!*

r

I
t

*

t

r-

11

4

i

t

V

A

f

.I

r: » \
t

t

t
4

*

l

V •' ’

V*

t

\♦

i
V

(>

\

4

A

r

4

t

» '
» I
t

i

:

\

\
t

/ Case: 0:16-cv-62332-BB

Document#: 78 Entered on FLSD Docket: 09/13/2018

Page 1 ofJO
\

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF FLORIDA

/

CASE NO. 16-cv-62332-BLOOM/White
CHARLENE TERRY-ANN WALKER ROSA,
a

Petitioner,
v.
JULIE L. JONES,
SECY,-FLA. DEP’T OF CORR’S,
Respondent.

ORDER DENYING MOTION FOR RECONSIDERATION
THIS CAUSE is before the Court upon pro se Petitioner’s Motion for Reconsideration,
ECF Nos. [67, 75]. The Court has reviewed the Motion and the record in this case, and is
otherwise fully advised as to the premises. For the reasons set forth below, the Court denies the
Motion for Reconsideration.

I. BACKGROUND
Petitioner was charged with first-degree murder of Lola Salzman by bludgeoning and/or
stabbing with a knife in violation of Florida Statute § 782.040 V. See ECF No. [30-1] at 13-14.
On July 5, 2007, the jury found Petitioner guilty of first-degree murder and she was sentenced to
a term of life in prison without the possibility of parole. Id. at 16-22. After a lengthy history of
proceedings in state court, Petitioner timely filed her Petition for habeas corpus relief in this
Court. See ECF No. [1]. Judge White summarized Petitioner’s four claims in his Report and
Recommendation (the “Report”), including the claim at issue here: that Petitioner’s defense

1

Case: 0:16-cv-62332-BB

Document #: 78 Entered on FLSD Docket: 09/13/2018

Page 2 of 10

CASE NO. 16-cv-62332-BLOOM/White
attorney was ineffective for conceding to the authenticity of recorded telephone_conversations at
trial. ECF No. [53] at 2.
On May 31, 2018, this Court adopted the Report and Judge White’s well-reasoned
analysis denying Petitioner’s claim that her defense attorney was ineffective for not objecting to
the authenticity of telephone recording tapes. ECF No. [61], at 16-17. A summary of Judge
White’s analysis follows. In Petitioner’s criminal trial, the State presented taped conversations
between Petitioner and two individuals, Maxine Hylton and Omar Nunez. ECF No. [53] at 2728.

On direct examination, both Ms. Hylton and Mr. Nunez testified that they agreed to

cooperate with law enforcement and participate in taped conversations with Petitioner, and
provided testimony about those recorded conversations. Id. Petitioner’s defense attorney did not
Afy
Zj) ita. &*SL HsJr
tccdk
object to the authenticity of the taped conversations when presented at trial, but conducted a

.j

thorough cross-examination of both witnesses. Id. at 26-28. Judge White concluded that the
“state post-conviction court’s conclusion that counsel was not deficient for failing to make a
meritless objection was consistent with Strickland and not objectively unreasonable. Moreover,
Petitioner’s claim fails because she cannot demonstrate a reasonable probability that the jury
<1 L
/Her to -^rciudL
5»j^
would have found her not guilty had the trial court excluded the testimony identifying her voice.

y/c?r Ur i/jpl- cl-

Id. at 28.

«Covt 9a&j
v.

Petitioner filed a Motion for Certificate of Appealability, ECF No. [62], which the
Clerk’s office construed as a notice of appeal from the final order denying the § 2254 petition,
and therefore transmitted a notice of appeal to the Eleventh Circuit Court of Appeal on June 1,
2018. Thereafter, Petitioner filed a Motion for Leave to Proceed in forma pauperis for Costs of
Transcripts on Appeal. ECF No. [70]. The Eleventh Circuit held that the motion for a certificate
of appealability designated an appeal from the magistrate judge’s report recommending the

2

'XM&Mu

uase; uiib-cv-b^adzi-bts

uocumeniff: fa tnterea on i-Lbu uocKei: uy/ib/zuib

Kage a ot iu

denial of the § 2254 petition, which report was not appealable. However, it construed ECF No.
[70] as a timely notice of appeal from the final order denying the § 2254 petition. See ECF No.
[75] at 2-3.

Petitioner filed a Notice of Newly Discovered Evidence, ECF No. [67], and

Supplemental Post Judgment Motion, ECF No. [75], which the Eleventh Circuit construed as
moving to reconsider the Court’s denial of the § 2254 petition. See ECF No. [75] at 3. On
August 23, 2018, the Eleventh Circuit remanded the case to this Court for the limited purpose of
addressing Petitioner’s motion to reconsider the denial of the § 2254 petition. Id.
The purported newly discovered evidence Petitioner filed includes two memoranda to file
by Petitioner’s defense counsel in the underlying criminal case, H. Dohn Williams Jr., and six
letters from counsel to Petitioner. ECF No. [67], at 23-48. Petitioner has identified as relevant
to her Motion for Reconsideration a portion of a memorandum to file dated February 19, 2007,
consisting of defense counsel’s notes of a meeting with Petitioner discussing the State’s evidence
in her criminal proceeding. The relevant portion of said memorandum provides:
I told the client about the portions of the calls that concerned me. She said she did
not want to hear the tape-recordings because it was not her voice on the tape
recordings or if it was her voice the police manipulated the recording to make her
look bad.
^

I explained to the client that I had heard her voice enough to recognize it and that
it was her voice.

Id. at 30. Petitioner alleges that defense counsel provided her with this memorandum after she
contacted him following the issuance of Judge White’s Report and Recommendation. Id. at 21J

22.

Petitioner further alleges that the language in the memorandum is new evidence that

demonstrates defense counsel had a conflict of interest. See, e.g., ECF No. [75] at 5.

3

Case: 0:16-cv-62332-BB

Document #: 78 Entered on FLSD Docket: 09/13/2018

Page 4 of 10

CASE NO. 16-cv-62332-BLOOM/White
II. STANDARD
Petitioner seeks reconsideration of the Court’s denial of the § 2254 petition. “While Rule
59(e) does not set forth any specific criteria, the courts have delineated three major grounds
justifying reconsideration: (1) an intervening change in controlling law; (2) the availability ofJ
new evidence: and (3) the need toxorrect clear error or prevent manifest injustice.” Williams v.
Cruise Ships Catering & Serv. Int'l, N.V., 320 F. Supp. 2d 1347, 1357-58 (S.D.. Fla. .2004)
(citing Sussman v. Salem, Saxon & Nielsen, P.A., 153 F.R.D. 689, 694 (M.D. Fla. 1994)); see
also Burger King Corp. v. Ashland Equities, Inc., 181 F. Supp. 2d 1366, 1369 (S.D. Fla. 2002)
(“[Tjhere are three major grounds which justify reconsideration: (1) an intervening change in
controlling law; (2) the availability of new evidence; and (3) the need to correct clear error or
•”). “[Reconsideration of a previous order is an extraordinary remedy
to be employed sparingly in the interests of finality and conservation of scarce judicial
resources.” Wendy's Int'l, Inc. v. Nu-Cape Const., Inc., 169 F.R.D. 680, 685 (M.D. Fla. 1996);
see also Campero USA Corp. v. ADS Foodservice, LLC, 916 F. Supp. 2d 1284, 1290 (S.D. Fla.
2012) (“A motion for reconsideration is an extraordinary remedy to be employed sparingly”)
(citation omitted).
*

“Motions for reconsideration are, appropriate where, for example, the Court has patently

misunderstood a party.” Compania de Elaborados de Cafe v. Cardinal Capital Mgmt., Inc., 401
F. Supp. 2d 1270, 1283 (S.D. Fla. 2003). But “[a] motion for reconsideration should not be used
as a> vehicle to present authorities available at the time of the first decision or to reiterate
arguments previously made.” Z.K. Marine Inc. v. M/VArchigetis, 808 F. Supp. 1561, 1563 (S.D.
Fla. 1992). “[T]he movant must do more than simply restate his or her previous arguments, and
any arguments the movant failed to raise in the earlier motion will be deemed waived.”

4

/ Case: 0:16-cv-62332-BB

Document #: 78 Entered on FLSD Docket: 09/13/2018

Page 5 of 10

Compania, 401 F. Supp. 2d at 1283. Simply put, a party “cannot use a Rule 59(e) motion to
relitigate old matters, raise argument or present evidence that could have been raised prior to the

'

entry of judgment.” Michael Linet, Inc. v. Vill. of Wellington, Fla., 408 F.3d 757, 763 (11th Cir.
l/Vo'i
0{cumA\m3j "Xj> hSLCj0'yt/[\z^sA
III. DISCUSSION

VUT
obft CouuuJtsJl
b^jji Uo i^CJL ooq k&rs 7.

2005).

The nevy .evidence, Petitioner submitted does not change the Cnnrt’s rnnrlnsinn This
Court determined that Petitioner’s claim that defense counsel was ineffective for failing to object

iO»

to the authenticity of the recordings did not satisfy the Strickland standard. Alternatively, to the
extent that Petitioner intends to raise a new argument that her cfiminaLdefense counsel had an

£

^“actual conflict,” or in other words, “inconsistent interests,” see Freund v. Butterworth, 165 F.3d
839, 859 (11th Cir. 1999), Petitioner’s claim is procedurally tim&Jbarred, and in any event, fails
froCjzdAU'oS

on the merits.

w<V0

A. Ineffective Assistance of Counsel
Although Petitioner’s Motion for Reconsideration seeks to advance a claim characterized
as a “conflict of interest,” based on newly discovered evidence, Petitioner has merely recycled
and repackaged the previously asserted ineffective assistance of counsel claim. In prior briefing

/
/

Petitioner contended that her attorney agreed with her that it was not Petitioner’s voice on the
recordings but he chose not to object for strategic reasons. Now Petitioner claims that her
attorney recognized her voice on the recordings despite Petitioner’s insistence that it was not her
voice. Whether defense counsel recognized her voice or not, at bottom, Petitioner’s claim is that
counsel was ineffective for not objecting to the authenticity of the phone recordings.
This Court’s conclusion that counsel satisfied Strickland’s deferential standard is
unchanged by the newly submitted internal memorandum. Counsel will not be deerped -•

5

\

Case: 0:16-cv-62332-BB

Document #: 78 Entered on FLSD Docket: 09/13/2018

Page 6 of 10

CASE NO. 16-cv-62332-BLOOM/White
c^Sl AsSixsiM W ^ G

Art

unconstitutionally deficient because of tactical decisions. Adams v. Wainwright, 709 F.2d 1443,
1445 (11th Cir. 1983); Ford v. Strickland, 696 F.2d 804, 820 (11th Cir. 1983) (en banc)', see
United States v. Costa, 691 F.2d 1358, 1364 (11th Cir. 1982). Even if in retrospect the strategy
appears to have been wrong, the decision will be held ineffective only jf it was so patently
unreasonable thaLao competent attorney would have chosenjL Adams v. Balkcom,

F.2d

--------------- :

W

734, 738 (11th Cir. 1982) (citing Washington v. Strickland, 693 F.2d 1243, 1254 (5th Cir. 1982).
also citing Ford v. Strickland, 696 F.2d 804, 820 (11 Cir. 1983) (en banc))', Baldwin v.
Blackburn, 653 F.2d 942, 946 (5th Cir. 1981), cert, den’d, 456 U.S. 950 (1982); Beckham v.
Wainwright, 639 F.2d 262, 265 (5th Cir. 1981). The burden of proof to establish ineffectiveness
and prejudice is on the petitioner. Washington, 693 F. 2d at 1262.
The new evidence - that defertsexounsgl recognized Petitioner’s voice m thejjhone call
recordings — does not demonstrate that the strategy to not object to the authenticity of the tapes
was wrong, much less that it was patently unreasonable. It is well-settled in Florida that voice
identification is admissible and that testimony attesting to the “identity of the accused even by
one who has heard his voice” is “direct and positive proof of a fact.” Martin v. State, 100 Fla.
24 (Fla. 1930) ; see England v. State, 940 So. 2d 389,401 (Fla. 2006), cert, den’d by England
• v. Florida, 549 U.S. 1325 (2007); Cason v. State, 211 So. 2d 604, 604 (Fla. 2d DCA 1968). At
etitioner’s criminal trial, the individuals who recorded the taped conversations with Petitioner

^

\

identified her voice on the tapes.. Defense counsel’s decision not to make a baseless objection to
~—;

"

the authenticity of the voice recordings is no less reasonable given that counsel was able to

W‘°

6

uoUj;
gUfcWjMCyk,

identify Petitioner’s voice in the tapes.

AV
6

Case: 0:16-cv-62332-BB

Document #: 78 Entered on FLSD Docket. 09/13/2018

P&Qe 17 ot lu

B. Conflict of Interest
To the extent that Petitioner intends to raise -axlaimthat her defense attorney had a

c-i ^ ■'“IS
Vv-'V>'A conflict of interest, it is a new claim that was not exhausted in state court, and therefore is
procedurally defaulted. See Footman v. Singletary, 978 F.2d 1207, 1211 (11th Cir. 1992) (“a

5$^*abeas petitioner may not

o f^t^^etition that the state court has not evaluated previously”); McNair v. Campbell, 416 F.3d 1291
&

------------------------------------ "

(11th Cir 2005) (holding, pursuant to § 2254(b)(1), habeas petitioners generally cannot raise
claims in federal court if those claims were not first exhausted in state court).
\ *

r**\ , X*.

t**.

“To properly exhaust a claim” it is not “sufficient that a somewhat similar state-law claim
a

was made.” Kelley v. Sec'yforDep'tofCorr.,311FM 1317, 1343-44 (11th Cir. 2004). The
Eleventh Circuit has provided further guidance on failure to exhaust claims of ineffective
assistance of counsel:
To properly exhaust a claim", “the petitioner must afford the State a full and fair
opportunity to address and resolyd the claim on the merits. Keeney, 504 U.S. at
10,112 S.Ct. at 1720. It is not sufficient merely that the federal habeas petitioner
has been through the state courts, Picard v. Connor, 404 U.S. 270, 275-76, 92
S.Ct. 509, 512, 30 L.Ed.2d 438 (1971)... . The petitioner must present his claims
to the state courts such that they are permitted the “opportunity to apply
controlling legal principles to the facts bearing upon (his) constitutional claim.” /
Picard, 404 U.S. at 211, 92 S.Ct. at 513 (alteration in original).
/
Thus, the prohibition against raising non-exhausted claims in federal court
extends not only to broad legal theories of relief, but also to the specific assertions
of fact that might support relief. For example, habeas petitioners may not present
particular factual instances of ineffective assistance of counsel in their federal
petitions that were not first presented to the state courts. Footman v. Singletary, J
\ 978 F.2d 1207, 1211 (11th Cir. 1992).
Id.
In Kelly, the district court granted petitioner’s habeas relief for ineffective assistance of
counsel on the ground that defense counsel failed to investigate and present evidence on behalf

7

>w,

Case: 0:16-cv-62332-BB

Document #: 78 Entered on FLSD Docket: 09/13/2018

Page 8 of 10

CASE NO. 16-cv-62332-BLOOM/White
of petitioner. Id. at 1347. The district court’s decision rested on defense counsel’s reliance on a
disbarred attorney conducting the pre-trial investigation. Id. Tfae_Eleventh Circuit compared that
claim to the most similar claim raised in state court to determine whether the claim had been
properly exhausted. Id. In state court, petitioner argued that her trial attorneys “failed to
investigate, develop, or present readily available evidence that would have supported their own
defense theories...” Id. Additionally, petitioner’s brief to the Florida Supreme Court mentioned
the disbarred attorney in one paragraph, stating that the disbarred attorney “did much of the
investigation and preliminary legal work.” Id. at 1349. Accordingly, the Eleventh Circuit held , that the district court should have dismissed petitioner’s ineffective assistance claim because
petitioner did not notify “the State that he intended to challenge his conviction on the ground that
his attorneys were constitutionally deficient in their duty to investigate or because they relied

on

[a disbarred attorney] for that chore.” Id. at 1348. The Court concluded that petitioner failed to
present[] the state court with this particular legal basis for relief in addition to the facts
supporting it.” Id. at 1350.
Here, Petitioner for the first time on Motion for Reconsideration is alleging that her.
Petitioner offers this as a new legal theory to explain why her
attorney failed to object to the authenticity of the phone recordings. The faction which this
claim is based are distinct from Petitioner’s claim in state court. In Petitioner’s Amended
Motion for Post-Conviction Relief, she claimed:
/ ™end.ant states that counsel visited her at the county jail to play a tape that the

\

State claimed was conversation, between her and State witness Omar Nunez and
Maxme Hylton. Defendant told counsel that she had no such conversation with
fit 61 Max‘ne Hylton or Omar Nunez. More over [«c], she asserted that was NOT
er v“fe; Defendant questioned counsel, as to whether or not he thought that it
sounded like her voice, and he agreed that it did not sound like her voice. Counsel
said but 11 sounded good, it said that Dutch did [it], not you.'
8

new

L/UWIUrf k. \J%JI J.O/ <1U1U

r aye v ui iu

E£F No. [30] at 217.

£

/These facts are distinct from those asserted in the Motion for Reconsideration. The claim
~

‘

---------------------------------------------------------------- --

'

'■

-------------------------------

(9
£ presented to the state court was that Petitioner’s defense counsel agreed that the voice on the

f/s
f1
W

tapes did not belong to Petitioner whereas Petitioner now contends defense counsel believed that

-------------

‘£y J > . the voice on the recordings belonged to Petitioner. Thus, thejstate court was not presented with
the conflict of interest theory j3rthe^facts_snpportinp it

$
cCP®

Although the Court’s analysis could end here, the Court will also address the merits of
Petitioner’s conflict of interest claim. A habeas petitioner who claims that he was denied his
Sixth Amendment right to the effective assistance of trial counsel because his lawyer had a
conflict of interest must show “that an actual conflict of interest adversely affected his lawyer's
performance.” Cuylerv. Sullivan, 446 U.S. 335 (1980); accord Freund v. Butterworth, 117 F.3d
1543, 1571 (11th Cir. 1997), vacated, 135 F.3d 1419 (11th Cir. 1998). This standard has been
applied in two traditional contexts: a lawyer’s “simultaneous representation” of-clieiits_with
adverse interests, and a lawyer's “successive, representation” of a client against whom a former
client appears as aptness. See, e.g., McConico v. Alabama, 919 F.2d 1543, 1546 (11th Cir.
1990) (noting that a conflict of interest may arise in either context). Although, conflicts of
interests have been found in some other contexts, this Court is not persuaded that the new
evidence demonstrated that Petitioner’s defense counsel has an actual conflict of interest that
affected his performance^
“An ‘actual conflict’ of interest occurs when a lawyer has ‘inconsistent interests.’”
Freund v. Butterworth, 165 F.3d at 859 (quoting Smith v. White, 815 F.2d 1401, 1405 (11th Cir.
1987). Petitioner does not claim that defense counsel’s interestswere compromised by any

9

i

Case: 0:16-cv-62332-BB

Document #: 78 Entered on

elsu

uocKet: ua/u/^uio

raye iu ui j.u

CASE NO. 16-cv-62332-BLOOM/White
factor_g%ternal to thg representation of Petitionen_such as the representation of any other client.
Defense counsel’s belief that he recognized Petitioner’s voice on the recorded phone
conversations does not give rise to inconsistent interests. Moreover, even if Petitioner could
demonstrate that her defense counsel had inconsistent interests, Petitioner has not shown thather
lawyer’s performance was affected.
It is therefore ORDERED AND ADJUDGED that Petitioner’s Motion forReconsideration of the Court’s denial of the § 2254 Petition, ECF Nos. [67,75], is DENIED.
DONE AND ORDERED in Miami, Florida, this 12th day of September, 2018.

it

BETH BLOOM
UNITED STATES DISTRICT JUDGE

Copies furnished to:
Charlene Terry-Ann Walker Rosa
L06814
Homestead Correctional Institution
Inmate Mail/Parcels
19000 SW 377th Street
Florida City, FL 33034
PROSE

10

ywwiMJi,

r aye x ui xc?

^U'iy
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF FLORIDA
CASE NO. 16-CV-62332-BLOOMAVHITE
CHARLENE TERRY-ANN WALKER ROSA,
Petitioner,
v.
JULIE L. JONES,
SEC’Y, FLA. DEP’T OF CORR’S,
Respondent.
ORDER ADOPTING MAQISTp atP

UPGE,S REPORT ANT) RECOMMENDATION

THIS CAUSE is before the Court upon pro se Petitioner
Corpus, ECF No. [7], filed pursuant to 28 U.S.C.

’s Petition for Writ of Habeas

§ 2254 (the “Petition”), which was previously

referred to the Honorable Patrick A. White for a Report and Recommendatio
n on any dispositive
matters. See ECF No. [3], On Apnl 2, 2018 Judge While issued a Report and Recommendation
(the "Report”), recommending that the Petition be denied on the merits
as to claims 1, 2, and 4
and procedurally barred as to claim 3.

See ECF No. [53]. The Report also recommended that

certificate of appealability be denied and that the

case be closed. In the Report, Petitioner was
advised that “ Objections to this report may be filed with the District Judge within fourteen days
of receipt of a copy of the report.” Id. at 38.
filed an Application for Certificate

She then timely filed Objections and separately

of Appealability. See ECF Nos. [54] and [59]. The Court has

since conducted a de novo review of Magistrate Judge White's Report and Recommendation,
Petitioner’s Objections, the record,

and is otherwise fully advised. See Williams v. McNeil, 557
F.3d 1287, 1291 (11th Cir. 2009) (citing 28 U.S.C. § 636(b)(1)).

wwuunicm tf. ui

Cl ueieu on t-Lsu Docket: Ub/31/2018

Page 2 of 19

CASE NO. 16-cv-62332-BLOOM/WHITE

I. BACKGROUND
Petitioner was charged with first-degree murder of Lola Salzman by bludgeoning and/or
stabbing with a knife in violation of Florida Statute § 782.04(1). See ECF No. [30-1] at 13-14.
On July 5, 2007, the jury found Petitioner guilty of first-degree murder and she was sentenced to
a term of life in prison without the possibility of parole. Id. at 16-22. After a lengthy history of
proceedings in state court, Petitioner timely filed her Petition for habeas relief in this tribunal.
See ECF No. [1 ]. The Report summarized Petitioner’s four claims as follows:
1. Ineffective assistance of counsel where counsel’s opening statements
prejudiced her from receiving a fair trial. Petitioner’s conviction was obtained by
an involuntary concession of guilt without understanding the nature of the charge
and the consequences of a plea since Counsel did not have Petitioner’s
affirmative, explicit consent to concede her guilt. Counsel’s opening and closing
statements, and cross examination of witnesses were a demonstration of evidence
conceding Petitioner’s guilt.
2. Ineffective assistance of counsel where:
(A)

Counsel was ineffective for conceding to the authenticity of the telephone
conversations;

(B)

Counsel elicited testimony that Petitioner’s blood was found on a picture
on a wall at the crime scene

(C)

Counsel
admitted to or failed to challenge evidence presented that
.
Petitioner extorted a friend to collect payment from the victim.

° v, Crounsel knowingly presented false testimony that Petitioner had a scar on
her hand and that she showed it to police at the time of the arrest as evidence
that the scar was a result of the “alleged murder” of the victim;
(E)

Counsel informed the jury that Petitioner left the country because of her
consciousness of guilt;

(F)

Counsel conceded to facts in the prosecution’s case without Petitioner’s
consent, which denied meaningful adversary testing; and

(G)

Counsel refused to “strategize” with Petitioner.

2

•

w

CASE NO. 16-cv-62332-BLOOM/WHITE
3. Ineffective assistance of counsel where Petitioner was shackled throughout the
entire trial in front of the jury, which prejudiced the Petitioner in violation of her
right to a fair trial.
4. Ineffective assistance of counsel where counsel failed to:
(A)

(B)

Call Dr. Edward Greenburg to testify as an expert witness who would
have stated that the victim died of natural causes. Counsel improperly
conceded that the victim died as a result of 43 stab wounds; and
Assert an alibi defense with the testimony of Thomas Fairbough.

ECF No. [53] at 2-4. Ultimately, the Report concluded that, as to claims 1, 2, and 4, the Petition
failed on the merits and, as to claim 3, it was procedurally barred for failure to exhaust the
remedy in state court.
II. OBJECTIONS
Petitioner’s lengthy Objections raise multiple arguments, which the Court summarizes as
follows: (1) the Report did not contain a verbatim recitation of her four claims for relief; (2)
Petitioner did not receive the assistance of counsel to prepare her Petition and did not know she
could file additional grounds for habeas relief; (3) the Report should have not relied upon the
recitation of facts contained within the opinion issued by Florida’s Fourth District of Appeals in
her direct appeal; (4) claim 3 is not procedurally barred because she has uncovered new evidence
of her actual innocence; (5) the Report erred in finding that claim 1 did not constitute ineffective
assistance of counsel; and (6) the Report misconstrued her position as to claim 2(a) regarding the
authenticity of telephone conversations. See ECF No. [54]. In addition, Petitioner separately
filed an Application for Certificate of Appealability. The Court addresses each issue in turn,
a. Objection Number 1
Petitioner did not object to the recommendation that claims 2(B) through 2(G) and 4 be
denied on the merits, other than to argue that the report failed to verbatim recite all claims and
3

AW

Case: 0:16-cv-62332-BB

Document #: 61 Entered on FLSD Docket: 05/31/2018

Page 4 of 19

CASE NO. 16-cv-62332-BLOOM/WHITE
supporting facts from her Petition. She claims that this failure rendered the Report inadequate
and deprived her of a fair and impartial review of her constitutional claims. See ECF No. [54] at
6-9. However, Judge White explicitly states in the Report that he reviewed the Petition at ECF
No. [7], and he accurately summarized each of Petitioner’s claims. See ECF No. [53]. The
Report need not include a word-for-word recitation of all claims and facts. The Report reflects
that Judge White meticulously analyzed each of the four claims in the Petition along with all
subparts and the underlying record. Id. Therefore, Petitioner’s objection is without merit and is
overruled.

And, because Petitioner did not raise any substantive objections to the

recommendation that claims 2(B) through 2(G) and claim 4 be denied on the merits, she has
foregone the right to otherwise object to the legal analysis and factual findings made by Judge
White as to these specific claims.
b. Objection Number 2
Petitioner next contends that conflict-free counsel should have been appointed to assist
her with the preparation of her Petition. It should be noted that prior to the instant objection,
Petitioner filed no less than four motions requesting the appointment of counsel and on four
occasions, Petitioner’s request was denied. See ECF Nos. [10], [11], [32], [39], [49], [50], [57],
[58]. In support of her objection, Petitioner argues that she is financially indigent and cannot
afford counsel and lacks the intellectual ability to properly articulate legal arguments in support
of her request for habeas relief. See ECF No. [54]. More specifically, Petitioner states she has
an intellectual quotient of 72 and is, therefore, intellectually disabled, referring to a report
prepared by the Department of Corrections.
A petitioner does not have a constitutional right to counsel during post-conviction
collateral attack proceedings. See Pennsylvania v. Finley, 481 U.S. 551, 555 (1987) (“Our cases
4

CASE NO. 16-cv-62332-BLOOM/WHITE
establish that the right to appointed counsel extends to the first appeal of right

, and no further. ..

. We think that since a defendant has no federal constitutional right to counsel when pursuing a
discretionary appeal on direct review of his conviction, a fortiori, he has no such right when
attacking a conviction that has long since become final upon exhaustion of the appellate
process. ’). The decision Whether to appoint counsel on a petition for habeas relief is subject to
the discretion of the trial court and “will not be overturned absent

a showing of fundamental

unfairness which impinges on the due process rights of the petitioner.” Vandenades

v. United

States, 523 F.2d 1220,1225-26 (5th Cir. 1975).
Petitioner s claim of intellectual disability is belied by the record. While she attached an
Intake Psychological Screening report dated July 10, 2007 to support her fourth Motion for
Appointment of Conflict-Free Counsel, ECF No. [57], indicating that her IQ is 72, the report also
concluded she has no mental retardation and does not suffer from any mildly impaired adaptive
functions. Id. at 21. Further, a review of the record reveals that Petitioner has filed lengthy,
eloquent, and detail-oriented filings throughout the proceedings in which she has cited to
relevant standards, case law, and the state-court record. Contrary to her claim, her filings reveal
she is able to articulate legal arguments in support of her request for relief. Because the record
does not reveal a need for an evidentiary hearing, the appointment of counsel is not mandatory,
and there has been no showing that the interest of justice requires an appointment of counsel,
Petitioner’s objection on this basis is overruled. See Rules Governing Section 2254 Cases Rule
8(c); see McGriffv. Dept, of Corr’s, 338 F.3d 1231 (11th Cir. 2003); Thomas v. Scott, 47 F.3d
713, 715 (5th Cir. 1995).
Also intertwined with this objection is Petitioner’s claim that this Court only allowed her
to pursue four of her thirty claims for habeas relief. See ECF No. [54] at 2. Petitioner states that
5

Case: 0:16-cv-62332-BB

Document #: 61 Entered on FLSD Docket: 05/31/2018
r*

Page 6 of 19

•'

CASE NO. 16-cv-62332-BLOOM/WHITE
the Court ordered her to file an amended motion and only allowed her to use the space provided
in the form, preventing her from adding extra pages. Id. Again, Petitioner’s claim is belied by
the record. Although the Court required that she use the form petition, she was repeatedly
informed that her motion and its incorporated memorandum of law could be up to twenty pages
excluding the title page, signature pages, certificates of good faith, and certificate of service. See
ECF No. [4]. In addition, Petitioner was informed that she could file an amended petition within
the twenty-page limit and could exceed such a limitation with prior leave of court and upon a
showing of good cause. Id. The Order did not limit Petitioner to the space provided within the
form and did not prevent her from adding pages. Id. Despite this, Petitioner opted to file a
sixteen-page application, raising only four claims, and never requested leave of Court to file a
petition exceeding twenty pages so that she could raise all thirty claims for relief. The Court,
therefore, finds this objection to be without merit.
c. Objection Number 3
Next, Petitioner objects to the Report’s reliance upon and recitation of facts contained
within the Fourth District of Appeals’ opinion issued in her direct appeal. See ECF No. [54] at
9-12. She argues that, because she did not receive effective assistance of counsel during the trial,
the facts as explained in the appellate court should not be considered as she “denie[s] all the
allegations in the direct appeal.” Id. at 11. The Court finds no error in the Report’s reliance
upon and recitation of facts from the Fourth District Court of Appeals’ decision when discussing
the underlying facts of the offense and procedural history. The appellate court’s opinion
provides a recitation of the evidence presented at trial, regardless of whether Petitioner disagrees
with the veracity of such evidence and how her case was presented to the jury. As further

6

CASE NO. 16-CV-62332-BLOOM/WHITE
explained below, this Court finds that Petitioner failed to prove her claims of ineffective
assistance of counsel, rendering her objection on this point moot,
d. Objection Number 4
As to her next objection, Petitioner argues that claim 3 is not procedurally barred. She
does not dispute Judge White’s conclusion that she failed to exhaust claim 3 in state court by
waiting to raise the claim until her third amended motion for post-conviction relief filed on
January 2, 2015.

Instead, she argues that the Court should consider an exception to the

procedural time bar to prevent a miscarriage of justice. See ECF No. [54] at 13. Specifically,
she asserts a claim of actual innocence, which allows consideration of a time-barred or
procedurally-barred claim. See McQuiggin v. Perkins, 569 U.S. 383 (2013). While Petitioner is
correct that “actual innocence, if proved, serves as a gateway through which a petitioner may
pass whether the impediment is a procedural bar,” the Supreme Court has explained that “tenable
actual-innocence gateway pleas are rare.” McQuiggin, 569 U.S. at 386. A prisoner may present
a constitutional claim, such as ineffective assistance of counsel, on the merits despite a
procedural bar only upon a “credible showing of actual innocence.” Id. at 392-93. “To be
credible, such a claim requires petitioner to support his allegations of constitutional error with
new reliable evidence—whether it be exculpatory scientific evidence, trustworthy eyewitness
accounts, or critical physical evidence—that was not presented at trial.” Schlup v. Delo, 513
U.S. 298, 324 (1995) (emphasis added). “[A] petitioner does not meet the threshold requirement
unless he persuades the district court that, in light of the new evidence, no juror, acting
reasonably, would have voted to find him guilty beyond a reasonable doubt.” McQuiggin, 569
U.S. at 386 (citing Schlup, 513 U.S. at 329 and House v. Bell, 547 U.S. 518, 538 (2006)
(emphasis added)). “The gateway should open only when a petition presents ‘evidence of
7

Case: 0:16-cv-62332-BB

Document #: 61 Entered on FLSD Docket: 05/31/2018

Page 8 of 19

CASE NO. 16-cv-62332-BLOOM/WHITE
innocence so strong that a court cannot have confidence in the outcome of the trial unless the
court is also satisfied that the trial was free of nonharmless constitutional error.” Id. at 401
(emphasis added). It should also be noted that “[unexplained delay in presenting new evidence
bears on the determination whether the petitioner has made the requisite showing.” McQuiggin,
569 U.S. at 399. Such unexplained delay “should seriously undermine the credibility of the
actual-innocence claim.” Id. at 400.
In support of her objection, Petitioner argues that on June 29, 2017, she discovered “new
evidence when the prison law librarian, Ms. Green, informed her that the computer revealed an
amended indictment or information1 filed on August 23, 2007 - one month after she was
convicted. Id at 14. This amended document charged Petitioner with two counts: first-degree
murder (Count I) and ‘“Solicit to Commit Robbery” (Count II). Id According to Petitioner, this
newly discovered evidence was filed of record on August 23, 2007 by the Hallandale Police
Department in Case No. 062005CF01014414A88810 and established that the State conceded
defense counsel’s theory of solicitation in which Petitioner solicited Ivan McKenzie a/k/a Dutch
to extort payment from the victim and that it was Dutch - not Petitioner - who killed the victim.
Id. Had the State presented the amended charging document to defense counsel prior to trial,
Petitioner argues that her counsel would not have pursued a strategy in which he admitted to
third-degree murder. Id. at 16.
Despite these arguments, Petitioner has not presented the Court with any evidence of her
actual innocence. She simply provides allegations that the prison law librarian, Ms. Green,
informed her of the August 23, 2007 amended indictment or information. Petitioner did not

It is unclear whether Petitioner claims the State filed an amended indictment or amended information as
she uses the two words interchangeably in her Objections. See ECF No. [54] at 14-16.
8

w*| kVAW

•

CASE NO. 16-cv-62332-BLOOMAVHITE
supply the Court with

copy of .he alleged amended indictmem or information that forms the

basis of her claim Of actual innocence or an affidavit from Ms. G
reen attesting to the discovery,
Instead, Petitioner simply provides
an unsubstantiated allegation, which falls far short of
satisfying the demanding standard articulated in Schlup. Given the lack of evidence, the Conn
cannot evaluate the claim to determine whether i
it supports Petitioner’s actual innocence
argument.
The Court also finds no merit in the argument that

an amended information or indictment
filed in August of 2007 in the public docket of the Seventeenth Judicial
Circuit in and for
Broward County, Florida constitutes newly discovered
evidence. Had Petitioner exercised any
degree of diligence, she could have discovered
such readily available information. Even if she
truly “discovered” this public filing on June 29, 2017, Petitioner still waited
until after the
issuance of the Report (more than ni
me months) to raise her actual innocence argument and did
so without any supporting evidence. Petitioner's failure to supply any reliable evidence and her
unexplained delay in raising this argument fail to satisfy the exacting standard
Jemison v. Nagle, 158 F. App'x 251, 256 (11th Cir. 2005) (holding that th

under Schlup. See

e district court did not

abuse its direction in failing

to conduct an evidentiary hearing when the petitioner did not
produce any reliable evidence te Support the claim of actual innocence^
such as the allegedly
Jxculpa^rBNAmporTorits results). For theseTelsons, Petitioner^^Tl^IT^
exception to resurrect her procedural^ barred claim of ineffective

assistance of counsel - claim

3. Petitioner’s objection is, therefore, overruled.
e. Objection Number 5
Next, Petitioner argues that defense counsel lacked the authority to waive her right
against self-incrimination and her nght to confront her witnesses when her counsel informed the
9

ui i</

L^uoumeru n: bl Entered on FLSD Docket: 05/31/2018

Page 10 of 19
CASE NO. 16-cv-62332-BLOOM/WHITE

jmy to the essential facts and elements of the prosecution's case were not in dispute and made
a concession of guilt as to lesser-included offenses. See ECF No. [54] at 20-26
relates to Judge White’s recommendation that claim 1 be denied

. This objection

on the merits because Petitioner

failed to demonstrate that her counsel s performance was deficient and prejudicial. Id.
Section 2254(d) only allows federal courts to grant habeas relief if the state
court's
resolution of those claims: “(1) resulted in
a decision that was contrary to, or involved an
unreasonable application of, clearly established Federal

law, as determined by the Supreme
Court of the United States; or (2) resulted in a decision that
was based on an unreasonable
determination of the facts in light of the evidence presented in the
state court proceeding.” 28
U.S.C. § 2254(d). Applying this standard,
a state court s decision will be deemed “contrary to”
clearly established Supreme Court precedent if either (1) ••die state court applies a ntle to
contradicts the governing law set forth in [Supreme Court]

cases,” or (2) “the state court

confronts a set of facts that are
materially indistinguishable from a decision of [the Supreme]
Court and nevertheless arrives at a result different from
[the Supreme Court’s] precedent.”
Williams v. Taylor, 529 U.S. 362,405-06 (2000).
In a § 2254 petition for habeas relief based

on a claim of ineffective assistance of
counsel, “ [t]he P1V0tal question is whether the state court’s application
of the Strickland standard
was unreasonable.” Harrington v. Richter, 562 U.S. 86, 101 (2011). This is not the
same as
asking whether defense counsel’s performance fell below Strickland's
standard. Id. Under
Strickland, a habeas petitioner was
must satisfy a two-prong inquiry: (1) defense counsel’s
performance was deficient and (2) the deficient performance prejudiced the defense.
V. Washington, 466 U.S. 668, 687 (1984). "A state court must be granted

Strickland
a deference and

latitude that are not in operation when the case
involves review under the Strickland standard
10

1

— « w.iv..

• w*y v

CASE NO. 16-cv-62332-BLOOM/WHITE
itself.” Id. “A state court’s determination that a claim lacks merit precludes federal habeas relief
so long as ‘fairminded jurists could disagree’ on the correctness of the state court’s decision.”
Id. (quoting Yarborough v. Alvarado, 541 U.S. 652, 664 (2004)). “[I]t is not an unreasonable
application of clearly established Federal law for a state court to decline to apply a specific legal
rule that has not been squarely established by th[e Supreme] Court.” Id. (quoting Knowles v.
Mirzayance, 556 U.S. Ill, 122 (2009)). This standard under § 2254 was intended to be a
difficult one to satisfy. Id. at 102 (“If this standard is difficult to meet, that is because it was
meant to be.”).
The Court must now apply these principles to Petitioner’s claim that her counsel’s
performance was ineffective when he allegedly waived her right against self-incrimination as
well as her right to confront her witnesses by conceding her guilt to lesser-included offenses.
When the state trial court ruled on this claim and denied the habeas relief, it adopted the State’s
arguments contained within its response brief. See ECF No. [30-1] at 658. The State, in turn,
argued that defense counsel never conceded Petitioner’s guilt to the crime charged - first degree
murder - and instead made arguments in closing argument that she was a principal to a thirddegree murder only after the State presented its evidence and that this tactic was a matter of trial
strategy to admit only a lesser-included offense. Id. at 633-634. Under Strickland, Petitioner
bears the burden of proving that her counsel’s concession “was objectively unreasonable and
that, but for the concession, a reasonable probability exists that the outcome of his trial would
have been different.” Harvey v. Warden, Union Corr. Inst., 629 F.3d 1228, 1249-53 (11th Cir.
2011). The Court now considers whether Petitioner’s objection to the Report has merit.
The Eleventh Circuit Court of Appeals has considered similar claims of ineffective
assistance of counsel. See e.g. McNeal v. Wainwright, 722 F.2d 674, 676-77 (11th Cir. 1984).
11

vi xv

Case: 0:16-cv-62332-BB

Document#: 61 Entered on FLSD Docket: 05/31/2018

Page 12 of 19

CASE NO. 16-cv-62332-BLOOM/WHITE
In McNeal, the defendant was also charged with first-degree murder and received a life sentence.
Id. Much like in this case, McNeal’s counsel never stated that he was guilty of murder and
instead argued that the government had, at most, proven manslaughter as there was no evidence
of premeditation. Id. Finding that “[a]n attorney’s strategy may bind his client even when made
without consultation” and that there was an overwhelming amount of evidence against McNeal,
the Eleventh Circuit held that it “cannot be said that the defense strategy of suggesting
manslaughter instead of first degree murder was so beyond reason as to suggest defendant was
deprived of constitutionally effective counsel.” Id. (citing Thomas v. Zant, 697 F.2d 977, 987
(11th Cir. 1983)). More recently, the Eleventh Circuit denied habeas relief for a similar
ineffective assistance of counsel claim, finding no error in the Florida Supreme Court’s
determination that the petition failed to prove a deficient performance or prejudice under
Strickland. See Atwater v. Crosby, 451 F.3d 799, 809 (11th Cir. 2006) (finding that Florida
Supreme Court did not unreasonably apply or reach a decision contrary to clearly established
federal law when, in light of the overwhelming evidence of guilt presented by the state and in an
effort to save the defendant’s life, defense counsel argued in closing that there was no evidence
of premeditation but that the evidence may support second-degree murder). In a thorough
analysis of the Strickland prejudice prong, the Eleventh Circuit more recently denied habeas
relief when the Florida Supreme court reasoned that a concession to first-degree murder during
opening statement “merely restated facts that the jury would soon hear when the State introduced
[the defendant’s] confession into evidence.” Harvey, 629 F.3d at 1252. Although defense
counsel in Harvey conceded first-degree murder in opening without first consulting the
defendant, the Eleventh Circuit determined that the Florida Supreme Court’s finding of no
prejudice was not “an unreasonable determination of the facts.” Id. (quoting 28 U.S.C. §
12

CASE NO. 16-cv-62332-BLOOM/WHITE
2254(d)(2)). This is because the State’s evidence against the defendant was overwhelming and
included his confession, making it “very difficult to see how the outcome of the trial would have
been different had Watson not conceded Harvey’s guilt, as charged in the indictment.” Id.
Petitioner argues the Report unreasonably concluded that the concession of guilt was a
trial strategy as such a concession was a departure from constitutional principles established by
the United States Supreme Court. See ECF No. [54] at 24. She further contends that due process
does not allow an attorney to admit facts that amount to a guilty plea without the client’s consent
and that her entry of a not guilty plea required the State to prove the charged offense and any
lesser-included offenses beyond a reasonable doubt. Id. at 24-25. According to Petitioner,
defense counsel’s presentation to the jury was “the functional equivalent of a guilty plea,”
demonstrating that she satisfied both prongs of Strickland. Id. at 25.
Upon review of the record, the Court concludes that the state court’s resolution of this
ineffective assistance of counsel claim did not result in a decision that “was contrary to, or
involved an unreasonable application of, clearly established Federal law, as determined by the
Supreme Court of the United States” and did not result “in a decision that was based on an
unreasonable determination of the facts in light of the evidence presented in the state court
proceeding.” 28 U.S.C. § 2254(d). During opening statement, defense counsel did not concede
that Petitioner was guilty of the crime charged, first-degree murder. To the contrary, defense
counseljepeatedlv stated in opening that “Ms. Rosa did not kill Lola Salzman ” See ECF No.
[31-1] at 367-368.

Instead, defense counsel provided a preview of the State’s evidence

consisting of telephone calls in which Petitioner admitted she enlisted Dutch’s assistance to
collect money owed bvthe victim and that the jeneounter_with the victim went awry when she

13

Case: 0:16-cv-62332-BB

Document #: 61 Entered on FLSD Docket: 05/31/2018

Page 14 of 19

CASE NO. 16-cv-62332-BLOOM/WHITE
took

Id. at 364,366. Defense counsel then argued that Dutch

killed the victim. Id.
During trial, the State presented evidence that the victim’s neighbor saw Petitioner walk
into the victim’s apartment on the date of her death, July 4, 2002, and later leave hurriedly from
the apartment. See Rosa v. State, 27 So. 3d 718 (Ha. 4th DCA 2010). Three of Petitioner’s
fingerprints were found at the scene. Id. Cell phone records also confirmed that Petitioner made
numerous calls from the victim’s apartment on the date of her death. Id. Also on this date,
Petitioner changed her upcoming departure flight to Jamaica from July 11, 2002 to July 5, 2002
and then again from July 5, 2002 to the evening of July 4, 2002 - the day the victim was killed.
Id. She then travelled to Jamaica using a passport in the name of "Alicia Lueyen.” Id.

Tape

recordings of Petitioner’s conversations revealed that she admitted to sending Dutch to collect
money from the victim and then stated that Dutch hit the victim with a phone when she
threatened to call the police.

Id.

In other taped conversations, she provided conflicting

information, stating that she went to a lady’s house to collect money on one call, that she did not
know what happed to the lady but she probably died in another call, and that she did not know
anything about the victim in yet another call. Id. And, after her arrest, she voluntarily stated that
she worked as an aide for the victim, confronted her about the money owed with her friend Frost,
and when doing so, the victim attempted to stab her with a knife. Id. Frost then struck the
victim in the face followed by them leaving the victim on the floor and driving away in the same
vehicle the neighbor described. Id.
At the close of the State’s case, the Court, the State and defense counsel discussed the
inclusion of several lesser-included offenses on the verdict form and in the jury instructions, such
as first-degree murder, second-degree murder, third-degree murder, and manslaughter. See ECF
14

^WWf\WU

•"aye J.O ui xy

CASE NO. 16-cv-62332-BLOOMAVHITE
No. [31-1] at 1233-1234. The inclusion of these lesser
trial strategy. Id. at 1344 (“[TJhat's
in motion by asking Dutch

offenses formed part of defense

counsel’s
our theory, Dutch killed her. She set this course of action

to get her money.”).

conference, the Court turned to the Petiti

At the commencement of the charge

oner and said: “Ms. Rosa, you need to participate in

this process.” Id. at 1234. Petitioner did

not voice any objection to the inclusion
of the
Iesser-included offenses in the jury instructions a,
any point during the charge conference. See
ECF No. [31-1] at 1233-1252.
Thereafter, in closing argument, Petitioner’s
counsel argued as
follows:
\

was not involved, I would lo^aUcnSbffitt ^th *** “y dient WaS innocent or
come before you to say is that my
*1 did’ but what 1 have
murder; rather, my client committed a much lesser criL”01 flIty,°f first deSree
an instruction on that, and that crime i« LTu
\and youre Soing to get
degree murder. That’s why we’re here today.
^ COmrmtted ^ crfme of third
■See ECF No. [31-1] at 1338.
Given the overwhelming evidence presented by dte State
said that the defense strategy of conceding third-d

against Petitioner, it cannot be

egree murder instead of first-degree murder
“was so beyond reason
as to suggest defendant
was deprived of constitutionally effective
counsel.” McNeal v. Wainwright, 722 F.2d 674,
676-77 (11th Cir. 1984). In fact, as pointed
out
in closing, defense counsel believed the defense
would have lost credibility had he argued that
Petitioner was innocent or not involved at all.
See ECF No. f31-l] a. 1338. “1„ this light,
counsel cannot be deemed ineffective for

attempting to impress to jury with his candor and his
unwillingness to engage in ‘a useless charade."'
Fla. v. Nixon, 543 U.S. 175, 192 (2004);; see
also Atwater v. Crosby, 451 F.3d 799, 809 (11th Cir.
2006). Petitioner likewise failed to present
any evidence of prejudice by the comments
made during opening as defense counsel simply

15

uocument #: 61 Entered on FtSD Docket: 05/31/2018

v-c»c.

Page 16 of 19

CASE NO. 16-cv-62332-BLOOM/WHITE
restated the facts that the State would introduce at trial. Harvey, 629 F.3d at 1252. And, in light
of the vast amount of evidence presented by the State, Petitioner failed to demonstrate that the
outcome of the trial would have been any different had defense counsel not conceded a lesserincluded offense. Id. Based on the foregoing, the Court cannot conclude that the state trial court
unreasonably applied or reached a decision contrary to clearly established federal law or
unreasonably determined the facts in light of the evidence presented in the state court
proceeding. Thus, Petitioner’s claim number 1 is denied on the merits and her objection to the
Report is overruled.
f. Objection Number 6
Petitioner’s final objection relates to claim 2(a). She argues that the Report misconstrued
her position regarding the authenticity of telephone conversations. See ECF No. [54] at 27.
According to the Objections, her position is not that her counsel was ineffective by failing to
object to the presentation of the recorded telephone conversations. Id. Instead, she states she
“wants the State to present its alleged telephone conversations and all it [sic] evidence to the
jury. What she is saying is that she object [sic] to the authenticity of the alleged tapes and all the
state evidence for the jury to decide the credibility of the witnesses and the state entire evidence,
she is entitle [sic] to that absent that right the jury verdict is unreliable.” Id. On the one hand,
she does not fault her defense counsel for failing to object to the admission of the recorded
conversations because she wants the State to present the evidence to the jury and, on the other
hand, she objects to the authenticity of the tapes and wants the jury to decide the credibility of
the witnesses. Petitioner’s objection is irreconcilably inconsistent and unintelligible. To the
extent Petitioner claims her attorney was ineffective for not objecting to the authenticity of the

16

CASE NO. 16-cv-62332-BLOOM/WHITE
tapes, the Court adopts Judge White’s well-reasoned analysis on this point. Therefore, this
objection is also overruled.
g. Certificate of Appealability
Finally, Petitioner filed a separate Application for Certificate of Appealability. See ECF
No. [59]. The Court first finds that Petitioner’s Application for Certificate of Appealability is
untimely as it is, in reality, a belated objection to Judge White’s recommendation that no
Certificate of Appealability be issued. See ECF No. [59]. Petitioner was cautioned in the Report
that she had fourteen days upon her receipt to file her objections with the district court. See ECF
No. [53] at 38. Although her objections, addressed above, were timely filed, her Application for
Certificate of Appealability, which is an additional objection, was not. Petitioner admittedly
received the Report on April 6, 2018. See ECF No. [54] at 1. She was, therefore, required to
provide all of her objections to prison officials for mailing no later than April 20, 2018 under the
prisoner mailbox rule. See Newnam v. McDonough, 2008 WL 539065 (N.D. Fla. Feb. 22, 2008)
(citing Washington v. United States, 243 F.3d 1299,1301 (11th Cir. 2001)) (noting that pursuant
to the prisoner mailbox rule, “a pleading is considered filed by an inmate on the date it was
delivered to prison authorities for mailing, which (absent contrary evidence) the court assumes is
the date he signed it”); see also Garvey v. Vaughn, 993 F.2d 776, 783 (11th Cir. 1993) (stating
that “the date of filing shall be that of delivery to prison officials of a complaint or other papers
destined for district court for the purpose of ascertaining timeliness”). Although Petitioner did
not date the Certificate of Service, prison officials at Homestead Correctional Institutional
stamped the legal mail as received by them on April 25, 2018. See ECF No. [59] at 1,14. Thus,
Petitioner failed to timely file this specific objection to the Report as it was filed five days after
the deadline.
17

VMWVi

W. AV

VV'VfcRRfc.'W

b/vuuniciii rr( ux

uiicicy v>i i uuu uuurxci. w#vx/x.vxw

r a^c xv yi xv

CASE NO. 16-cv-62332-BLOOMAVHITE
Despite the untimeliness of the objection, the Court will consider the merits of the
request. As explained in Judge White’s Report, a certificate of appealability should only be
issued if the Petitioner makes “a substantial showing of the denial of a constitutional right.” 28
U.S.C. § 2253(c)(2). If the district court rejects the Petitioner’s constitutional claims on the
merits, the Petitioner must establish that reasonable jurists would find such an assessment of the
constitutional claims to be debatable or wrong. See Slack v. McDaniel, 529 U.S. 473, 484
(2000). If the district court rejects a claim for procedural reasons, then the petitioner must show
that “jurists of reason would find it debatable whether the petition states a valid claim of the
denial of a constitutional right and that jurists of reason would find it debatable whether the
district court was correct in its procedural ruling.” Id. Petitioner has made no such showing as
to the Report’s denial of claims 1, 2 and 4 on the merits or the denial of claim 3 on procedural
grounds. Indeed, the arguments she raises are simply a recitation of the same arguments raised
in her Objections, which the Court rejected above and are not subject to debate by reasonable
jurists. Thus, Petitioner’s objection to Judge White’s recommendation that a Certificate of
Appealability be denied is also overruled.
In sum, the Court finds Judge White’s Report to be well reasoned and correct. The Court
agrees with the analysis in Judge White’s Report, finds no merit in Petitioner’s Objections, and
concludes that the Petition must be denied on the merits as to claims 1, 2, and 4 and dismissed as
procedurally barred as to claim 3 for the reasons set forth in the Report.
For the foregoing reasons, it is ORDERED and ADJUDGED as follows:
1. Magistrate Judge White’s Report and Recommendation, ECF No. [53], is ADOPTED;
2. Petitioner’s Petition, ECF No. [7], is DENIED on the merits as to claims 1, 2, and 4
and DISMISSED as procedurally barred as to claim 3;
18

r

CASE NO. 16-cv-62332-BLOOM/WHITE
3. Petitioner’s Objections, ECF No. [54], are OVERRULED;
4. Petitioner’s Application for Certificate of Appealability, ECF No. [59], is DENIED.
No Certificate of Appealability shall issue;
5. All pending motions are DENIED AS MOOT; and
6. The Clerk shall CLOSE this case.
DONE and ORDERED in Miami, Florida, this 31st day of May, 2018.

BETH BLOOM
UNITED STATES DISTRICT JUDGE
Copies furnished to:
Charlene Terry-Ann Walker Rosa
L06814
Homestead Correctional Institution
Inmate Mail/Parcels
19000 SW 377th Street
Florida City, FL 33034
PRO SE
The Honorable Patrick A. White

19

K

cd/]j (ju^l (

V

A V

♦

i

f
t

%
y

*
;

»’

{

\A

17th JlUlCIAL CIRCUIT
IN AND FOR BROWARD COUNT Y

}

T

DIVISION:

«

'DIVISION:
CRIMINAL

JUDGMENT
CASE NUMBER.

THE STATE OF FLORIDA VS.

/as?

DEFENDANT
□ Probation Violator
State Attorney
Court Reporter

0£Ln£>-'

The Defendant,

A. /yj^//y^7~r

yy>. •T/y&jy?
being personally before this Court represented by

, his attorney of record, and having:

eck applicable provision)
SB
Been tried and found guilty of the following crime(s)
□
Entered a plea of guilty to the following crime(s)
□
Entered a plea of nolo contendre to the following crime(s)
COUNT

yj.

1
OFFENSE STATUTE
NUMBER(S)

CRIME

INSTR * 107254485
OR IK 44397 Pages 1346 -1340
RECOROED 07,30/07 16:44:43
BROWARD COUNTY COMMiSi ON
DEPUTY CLERK 2080
#25,2 Pages

DEGREE OF
CMM®.

ADD!L MONIES
IMPOSED

7/yyjpf/JPpP’
•..7

*
and no cause having been shown why the Defendant should not be adjudicated guilty, IT IS ORDERED THAT the Defendant is
hereby ADJUDICATED GUILTY of the above crime(s).
^
^
The Defendant is hereby ordered to pay the sum of Fifty dollars ($50.00) pursuant to F.S. 960.20 (Crimes Comp. Trust Fund).
The Defendant is further ordered to pay the sum of Five Dollars ($5.00) as court costs pursuant to F.S. 943.25(4).
Fines imposed as part of a sentence pursuant to F.S. 777.083 are to be recorded on the Sentence page(s).
(Check if applicable)
( ) The court hereby stays and withholds the imposition of sentence as to count(s)_____
Stayed & Withheld
and places the Defendant on probation for a period of
__________________________ under the
Imposition of Sentence
supervision of the Department of Corrections (conditions of probation set forth in a separate order)
( ) The court hereby defers imposition of sentence until
Sentence Deferred
(Date).
Until Later Date
r) Pay $200.00 Trust Fund pursuant to F;S: 938.05 (1) (b) (c)
Count(s) _
SERVED.

DAYS/MONTHS BROWARD COUNTY JAIL W/CREDIT

j__

<

__

i

DAYS TIME

eal with the Clerk of Court within, thirty ,
The Defendant in open court was advised of his right to appeal from this Judgment by filing notice
days following the date sentence is imposed or probation is ordered pursuant to this adjudicatiopTTh^efendant was also advised of his rjght to the
assistance of counsel in taking said appeal at the expense of the State upon showing indigency:

I hereby certify that a true and correct copy dfthe above and foregoing^ served on the.
the Defense Attorney by: ( ) hand delivery ^ U.S. mail this _Nsc2L_ __day of rj

delivery

f?S. mail and to

Deputy Clerk
ICC 112-65 JUDGMENT

A

(A

1

I

I

'
i.

V.

f
OF

z.

i

\ CIRCUIT COURT DISPOSITION ORDER IN AND FOR BROWARD COUNTY, FLORIDA
\
1 M Case Number 040103,170= lOA______ _ Arrest Number
__________ ___ BCCN#
I \ State of Florida VS snsA. futoi Ftsp
AKA
CHARi f?ur-________ __
\ A Judge
- Cash bond / Return to depositor / Surety bond lf\C )
Cash bond number(s)
Charges: 0.01 MURDER TM THi? FTPjtT iDFKBPy

§5

!

IS
P
( ) REMANDED ( ) REMAIN IC ( ) UNTIL PICKED UP BY
_______ ______________ ___________
BED AVAILABLE AT

OR

\( ) Arraignment ( ) Change of Plea ( ) Guilty ( ) No Contest ( ) PSI/PDR ( ) Sentencing /Re-Sentencing
vN/) Trial by JuryLUTrial by Court ( ) First VOP / VOCC ,( ) Final VOP / VOCC ( ) Admits Allegations
Xy) Convicted ^Jury^burt----A---- ( ) Acquitted by Jury /Court________ ( ) Dismissed
___ ( ) Speedy
) Discharged
_( ) Nolle ProsequL------------- ( ) Found Incompetent/Committed to Child/Family Services
Adj. Guilty,, / _ _ ___ _.().Adj, Withheld______.............. ( ) Adj. Delinquent —-----------------( ) Committed to DJJ/Level------------------( ) Sentence Withheld
( ) Previous Sentence Vacated
( ) PSI Ordered-__________
Adj. and Sentence deferred to

NJ

Type of Probation / Community Control:
( ) Youthful Offender ( ) Drug Offender ( ) Sexual Offender ( ) Habitual Offender ( ) Mental Health ( ) County
PROBATION/COMM. CONTROL:
( ) Revoked ( ) Reinstated ( ) Modified ( ) Terminated
( ) Extended___:_______
---------------1-------------- :— ( ) All previous special conditions apply
WARRANT:
( ) Dismissed ( ) Withdrawn ( ) Served in open court
SENTENCE: (PROBATION/COMM.CONTROL)
COUNT(S):_________________ _
______________ ( ) Years ( ) Months ( ) Days
______________ ( ) Years ( ) Months ( ) Days
( ) each count concurrent/consecutive ( ) concurrent
COUNT(S):___________________
( ) Years ( ) Months ( ) Days

_____________( ) Years

( ) Months

( ) each count concurrent/consecutive

( ) Probation ( ) Community Control ( ) followed by
( ) Probation ( ) Community Control
( ) consecutive to case number______________________
( ) Probation

( ) Community Control

( ) followed by

( ) Days, ( ) Probation ( ) Community Control

( ) concuproit ( ) consecutive to case number_________ ,______!______

SEN TENCE: (INCARC.fMTION)
COIJNTnKSJ:
/
e year plus one day ( )
( ) Years ( ) Months ( ) Days
( ) BCJ X/) FSP, w/credit for
_ daysT/S
( ) followed by____________
( ) Years ( ) Months ,.( )Days ( ) Probation ( ) Community Control
( ) each count concurrent/consecutive ( ) concurrent/consecutive ( ) to case number :___________________
( ) any other sentence ( ) Work release ( ) prison sentence suspended
COUNT(S): _________________
i^Ohe year plus one day ( )
( ) Years ( ) Months ( ) Days
( ) BCJ ( ) FSRw/credit for _
..../-daysT/S
;
( ) followed by /}______
( /Years ( ) Months ( ) Days ( ) Probation ( .) Community Control
( ) each count con/umjnt/conseputive / ) concurrent/consecutive ( ) to case number_____ 1______________
( ) any other sent/nc
release ( ) prison sentence suspended
)
JUDGE
DEPUTY Cm
6B-1

1CC 14-1 REV. 9/01

/

5^

. FILE COPY

DATE

■

<*>

WiSiON:'
CRIMINAL

SENTENCE

w -

(AS TO COUNT

OTHER PROVISIONS
firearm/destructive

V 4s------------------ minimum
mm2> ”d (3) “

I

]

THREE-TIME VIOLENT FELONY
OFFENDER

[

]

The Defendant is adjudicated a three-time violent felony offender and has been sentenced
o aiy exten ed term Hi accordance with the provisions of Florida Statute 775.084. The
inqiencourt”^ ^ 016 C0Ult ^ S6f forth 111 a seParate order or as stated on the record

SHORT-BARRELED RIFLE,
SHOTGUN, MACHINE GUN

[

]

It ^further ordered that the five-yea- minimum provisions of Florida Statute 790.22(2)
are hereby imposed for the sentence specified in this count.

CONTINUING CRIMINAL
ENTERPRISE

[

i

“ iS. ^5“ °rdfed Aat the 25 yea mandatory minimum sentence
provisions of Florida Statute 893.20 are hereby imposed for the sentence specified in this

RETENTION OF
JURISDICTION
JAIL CREDIT

[

J

DEVICE

^“i.

^

*• —»

The court retains jurisdiction over the defendant pursuant to Florida Statutes 947.16 (3).

TV 1

11 is filrther ordered that the defendant shall be allowed a total of
days as credit: for tune incarcerated pnor to imposition of this sentence.

[

]

It is further ordered that lie defendant be allowed credit for all time previously
served on
this count in the Department of Corrections prior to re-sentencing.

CONSECUTIVE
CONCURRENT AS TO
OTHER COUNTS

[

]

It is further ordered that the sentence imposed by this court shall run
consecutive to.
—— concurrent with (check one) the sentence set forth in
count
of this case.

CONSECUTIVE
CONCURRENT AS TO
OTHER CONVICTIONS

[

]

It is further ordered that the composite term of all sentences imposed for the
courts
specified in this order shall run
---------- -consecutive to_-------------- concurrent with (check one) the following:
—— ---- Any active sentence being served.
(___
Specific Sentences:._____ ; ■

PSI ORDERED

YES[ ] N ^]

PRISON CREDIT

r

*

In imposing the above sentence, the court further recommends
DONE AND ORDERED in Open Court at Broward County. Florida, this

I HE

JCC 112-78 Criminal Sentence

r

5

CASE NUMBER

.

Pa

.2^

[1

o

17th Judicial GircuC^l

nd for Broward County

DIVISION:
Criminal

CLOCK IN

v-f

\

SENTENCE
as to Count

THE STATE OF FLORIDA VS.

CASE NUMBER

DEFENDANT

ClV~/dfZ7

The Defendant, being personally before this court, accompanied by his attorney, ^ /S/Ss /
and having been adjudicated guilty herein, and the court having given the Defendant an opportunttyto be heard and to offer matters in
mitigation of sentence, and to show cause why he sentenced as provided by law, and cause shown,
I Check I

LiLI

\

□

and the Court having on

□

and the Court having previously entered a judgment in this case on the defendant now resentences the defendant.

□

deferred imposition of sentence until this date.

and the Court having placed the Defendant on Probation/Community Control and having subsequently revoked the
Defendant’s Rrobation/Community Control.
>

i
\

IT IS THE SENTENCE OF THE COURT that:
The Defendant pay a fine of $____
by F.S. 960.25.

.,. pursuant to F.S. 775.063, plus $

at the 5% surcharge required

The Defendant is hereby committed to the custody of the Department of Corrections.
□

The Defendant is hereby committed to the custody of the Sheriff of Broward County, Florida.

□

The Defendant is hereby sentenced as a youthful offender in accordance with F.S. 958.04.
•:V
::
TO BE IMPRISONED (check one: unmarked sections are inapplicable)

i

For a term of Natural Life.
For a term of
□ ,

.

Ufi

□
□

s

(Hi*)' ii/1tub)

Said SENTENCE IS SUSPENDED for a period'of
in this Order.

If 'split” sentence
complete either
paragraph

?

Subject to conditions set forth
X;

Followed by a period of
Oh Probation/Community Control
under the supervision Of the Department of Correction according to the terms and re nditions
of supervision set forth in separate Order entered herein.
’ *1
However, after serving a period of__ ,
imprisonment in____ j____ .
__________________________________
the balance of such sentence shall be suspended and the defendant shall be placed on
Probation/Community Control for a period of
_____'
___________
• under supervision of the Department of Corrections according to the terms and conditions of
Probation/Community Control set forth in a separate order entered herein.
■

••• -V

i

I HEREBY CERTIFY that a true and correct oqoy of the above and foreg
to the Defense Attorney by: [ ) Hand delivery >^U.S. Mail this

2"
..y

112-73 SENTENCE PG 1

:

>>
A

^ U.S. Mail and

i

DIVISION:
CRIMINAL

\

)

SENTENC
(AS TO COUNT

CASE NUMBER

In the event the defendant is ordered to serve additional split sentences, all incarceration portions shall be satisfied before the defendant be­
gins service of the supervision terms.

SPECIAL PROVISIONS
(As to Count

)

By appropriate notation, the following provisions apply to the sentence imposed:
'i

t.
».
MANDATORY/MINIMUM PROVISIONS:
.«•
BATTERY ON THE
O
It is further ordered that the three (3) year mandatory minimum imprisonment provisions
ELDERLY
of F.S. 784.08(1) are hereby imposed for the sentence specified in this court.

DRUG TRAFFICKING

CD

It is further ordered that the
mandatory minimum imprisonment provisions of
Florida Statute 893.135(1) are hereby imposed for the sentence specified in this court.

CONTROLLED
SUBSTANCE WITHIN
1000 FEET OF SCHOOL

□

It is further ordered that the three year minimum imprisonment provision of Florida Statute
893.13(1 )(e) 1, are hereby imposed for the sentence specified in this court.

HABITUAL FELONY
OFFENDER

CD

The defendant is adjudicated a habitual felony offender and has been sentenced to an
extended term in this sentence in accordance to the provisions of Florida Statute 775.084(4).
The requisite findings by the court are set forth in a separate order or stated on the record in
open court.

HABITUAL VIOLENT
OFFENDER

CD

The defendant is adjudicated a habitual violent felony offender and has been sentenced to an
extended term in this sentence in accordanp^vfitK'the provision of Florida Statute 775.084(4).
A minimum terfn of _______
.vfearfsl must be Served prior to release. The requisite
findings by the court are. set forth in a^epar% order or stated ort;(he record in open court.

LAW ENFORCEMENT
PROTECTION ACT

CD

It is further ordered that the Defendant shall serve*a, mini mum of
release in accordance with FloridaStatute 775.0823.- ,.
F
V ", '
1
. -Vju

i

. \ kit?or.

CAPITOL OFFENSE

: lv-v

It is further ordered that the Dpfendan( Sjb(4)iScm ;nQ'l?sa(than'2«sjiaa« in accordance with the
provisions ofFlorida Statute 775.082(1).
,,
*
4*
t-ii notr*
ti.' *:,7 \ •v..'
jls*U ,1 •».■>* *’t: ;
\

VIOLENT CAREER
CRIMINAL

CD

PRISON RELEASEE
REOFFENDER

r~i

The defendant is adjudic^d a^^earc^er^riminafoffeftder and has been sentenced to a
term in accordance with the provision of Florida Statute 775.084(4I(cl. A minimum term of
______
vear(s) tfjulllie
|ttOr,tdte|^ase."irhe requisite findings by the court are
set forth in a separate%rderor stated on the record in opeti^ourt
•-•isUfA.:

.i

The defendant is sentenced as a prison releasee{rpoffender and must serve a term of impris­
onment of.
_____ years in aCcor'datrde with the provisions of Florida Statute
775.082(8)(a)2.
V

I HEREBY (EERT1FY that a true and correct copy of the above and foregoinWas served on the Stitgffi AttOi
I 1 Nj.S. Mail and to the Defense Attorney by: [ ] Hand delivery'), ] U.S. Mail this ter
_
da
FORMICC1

years before

.f .

\

/s&ias&yy

State of Florida VS

'i

.Case Number

SPECIAL CONDITIONS OF PRISON SENTENCE;
( ) Habitual Violent Offender mandatory minimum_
t
years Ct(s).
( ) Violent Career Criminal mandatory minimum__ _
■
years Ct(s).
_____ years Ct(s).
( ) Prison Releasee Reoffender mandatory minimum
years Ct(s)
( ) Firearm mandatory minimum
( ) Other mandatory minimum _
( )Youthful Offender ( ) Sexual Predator/Offender ( ) Boot Camp
( ) Habitual Offender Ct(s)___
Program
( ) Drug Treatment { ) Tier •
( ) To be given credit for all time previously served in prison) to be calculated by Department of Corrections
SPECIAL CONDITIONS OF PROBATION:
!__days T/S ( ) work release ( ) Boot Camp
l_days BCJ w/credit for
( )
( ) ATTAC ( ) Work, release after successful completion of ATTAC ( ) Electronic Monitor ( ) Drug Treatment
( ) BSO/SAP (. _) Upon successful completion of drug1 program jail sentence shall be terminated__________
(
(
(
(
(
(
(
(
(
(
(
(
(
(
(
(
(
(
(
(
(

N
(

(. ) Obtain GED or High School diploma
hours of Community Service
)
COS waived/ imposed
( ) Peg Program
)$--------^------ .---- ;---------(. ) Psychological / Psychiatric evaluation and
) Anger Mangement Program
________ ___________
treatment necessary
) BARC ( ) followed by___ _
)'"BloodlliliwWF:S'r943:325~2'T^les-fofT®lWiCti0rrof -..... ( ) Random drug/alcohol testing
( ) Random urinalysis/waive cost
sexual assaults; leWd or indecent acts; homicides (782.04)
( ) Recommend 2-year Driver’s License Suspension
aggravated battery; home invasion robbery or carjacking
/amount reserved
{. ) Restitution ordered $
) Curfew
( ) Restitution converted to a civil lien ■
) Drug / Alcohol evaluation and treatment recommended
( ) Spectrum
) Forfeit weapon / firearm
( ) Substance abuse evaluation
) F.A.C.T.
( ) Turning Point Bridge Program/Aftercare
) House of Hope
( ) Work Permit
) IRT ( ) followed by___
to
( ) Make donation of $
) May transfer probation to
_ fdr work purposes '
) May travel
) No contact with minor children without adult supervision .
) No contact directly or indirectly with victim(s) or victim’s family ■
or others listed
. ‘
) No driving without valid driver's license
) No drugs or alcohol
) Enter and successfully complete____
) Drug Court Monitoring/Hearing set . ..
) Other________________________
COSTS
( ) $201 DVC
■ ( ) $100 OTF
) $200 Trust Fund
( ) $151 RCP
■ ( :;) $20 CSTF .
) $50 VC each count
( ) $101 CAM
( ) $2 T.C. each count
) $5 Assessment each count
(
) $20 SN1
(
)
$65
AG
each
count
) $50 SN1
) $15 CFF each count
PD fee
) $40 PD application fee waived / imposed
■ sdfcharae count/sL
fine plus $____
)$
Extradition costs
Court Costs count(s) _
(-)$
)$
) Pay balance of jjrevtoj^sly imposed costs ( ) Waive all court costs
i-Balanee-of-eoucKeosts-and-fees GORverted-to-a-civfi-lien -........
) PD fee convened io a civil lien

i

Svi :
(
V|

(

(

( ) Other------7 7WV
JUDGE

j

------------------ :------ ---------

7m,

DEPUTY CLERI

DATE
t

112-81 Dispo. 2nd Pegs
White; FILE Green: Sheriffs Yellow; Probation Pink: Defendant Gold: Defense Attorney

f

►

17th JuLiwll Circuit in and for BroCSd County
Criminal Division

UNIFORM COMMITMENT TO CUSTODY OF
DEPARTMENT OF CORRECTIONS
The Circuit Court of BROWARD County in the SPRING Term, 2007 in the case of
STATE OF FLORIDA
VS.
(CASE NUMBER)

(DEFENDANT)
i.

IN THE NAME AND BY THE AUTHORITY OF THE STATE OF FLORIDA, TO THESHERIFF OP SAID
COUNTY AND THE DEPARTMENT OF CORRECTIONS OF SAID STATE, GREETINGS :
The above named defendant having been duly charged with the offense specified herein in the
above styled Court, and having been duly convicted and adjudged guilty of and sentenced for said
offense by said Court, as appears from the attached certified copies of indictment/information, Judgment
and Sentence, and Felony Disposition antfSehtence Data form which are hereby made parts hereof;
Now therefore, this is to command you, the said Sheriff, to take and keep and, within a reasonable
time after receiving this commitment, safely deliver the said defendant, together with any pertinent
investigation Report prepared in this case, into the custody of the Department of Corrections of the State
of Florida; and this is to command you, the said Department of Corrections, by and through your
Secretary, Regional Directors, Superintendents, and:other officials, to keep and safely imprison the said
defendant for the term of said sentence in the institution ih the state correction system to which you, the
said Department of Corrections, may cause the said defendant to be conveyed to thereafter transferred.
And these presents shall be your authority for the same. Herein fail not.

WITNESS the Honorable
Judge of said Court, as also
Howard C. Forman, OJ* , and the
_________ _ day of__
Seal thereof, this
“Howard-Gv-Forman,Clerk
*5
i.

brow**?

BY

couwt'*

ICC 112-39 UNIFORM CUSTODY DEPT OF CORRECT

■i
“t

6*

deputy Clerk

A

